59434                 Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

technology to minimize the information      Office Building, Room 10235,                      Copies of these compliance program
collection burden.                          Washington, D.C. 20503.                        guidances can be found on the OIG web
   (1) Type of Information Collection         Dated: September 11, 2000.                   site at http://www.hhs.gov/oig.
Request: New Collection;                    John P. Burke III,                             Developing the Compliance Program
   Title of Information Collection:
                                            HCFA Reports Clearance Officer, HCFA,          Guidance for Individual and Small
Employee Building Pass Application          Office of Information Services, Security and   Group Physician Practices
and File;                                   Standards Group, Division of HCFA
   Form No.: HCFA–730 & 182 (OMB#           Enterprise Standards.                            On September 8, 1999, the OIG
0938–NEW);                                                                                 published a solicitation notice seeking
                                            [FR Doc. 00–25581 Filed 10–4–00; 8:45 am]
   Use: The purpose of this system and                                                     information and recommendations for
                                            BILLING CODE 4120–03–P
the forms are to control United States                                                     developing formal guidance for
Government Building Passes issued to                                                       individual and small group physician
all HCFA employees and non-HCFA             DEPARTMENT OF HEALTH AND                       practices (64 FR 48846). In response to
employees who require continuous            HUMAN SERVICES                                 that solicitation notice, the OIG received
access to HCFA buildings in Baltimore                                                      83 comments from various outside
and other HCFA and HHS buildings.;          Office of Inspector General                    sources. We carefully considered those
   Frequency: Other; as needed;                                                            comments, as well as previous OIG
   Affected Public: Federal Government,     OIG Compliance Program for                     publications, such as other compliance
and business or other for-profit;           Individual and Small Group Physician           program guidance and Special Fraud
   Number of Respondents: 150;              Practices                                      Alerts, in developing a guidance for
   Total Annual Responses: 150;                                                            individual and small group physician
   Total Annual Hours: 37.50.               AGENCY: Office of Inspector General            practices. In addition, we have
                                            (OIG), HHS.                                    consulted with the Health Care
   (2) Type of Information Collection
Request: Extension of a currently           ACTION:   Notice.                              Financing Administration and the
approved collection;                                                                       Department of Justice. In an effort to
   Title of Information Collection:         SUMMARY:    This Federal Register notice       ensure that all parties had a reasonable
Limitation on Liability and Information     sets forth the recently issued                 opportunity to provide input into a final
Collection Requirements Referenced in       Compliance Program Guidance for                product, draft guidance for individual
42 CFR 411.404, 411.406, and 411.408;       Individual and Small Group Physician           and small group physician practices was
   Form No.: HCFA–R–77 (OMB# 0938–          Practices developed by the Office of           published in the Federal Register on
0465);                                      Inspector General (OIG). The OIG has           June 12, 2000 (65 FR 36818) for further
   Use: The Medicare program requires       previously developed and published             comments and recommendations.
to provide written notification of          voluntary compliance program guidance          Components of an Effective Compliance
noncovered services to beneficiaries by     focused on several other areas and             Program
the providers, practitioners, and           aspects of the health care industry. We
                                                                                             This compliance program guidance
suppliers. The notification gives the       believe that the development and
                                                                                           for individual and small group
beneficiary, provider, practitioner, or     issuance of this voluntary compliance
                                                                                           physician practices contains seven
supplier knowledge that Medicare will       program guidance for individual and
                                                                                           components that provide a solid basis
not pay for items or services mentioned     small group physician practices will
                                                                                           upon which a physician practice can
in the notification. After this             serve as a positive step towards assisting
                                                                                           create a voluntary compliance program:
notification, any future claim for the      providers in preventing the submission
                                                                                             • Conducting internal monitoring and
same or similar services will not be paid   of erroneous claims or engaging in
                                                                                           auditing;
by the program and the affected parties     unlawful conduct involving the Federal           • Implementing compliance and
will be liable for the noncovered           health care programs.                          practice standards;
services.;                                  FOR FURTHER INFORMATION CONTACT:                 • Designating a compliance officer or
   Frequency: Other; as needed;             Kimberly Brandt, Office of Counsel to          contact;
   Affected Public: Individuals or          the Inspector General, (202) 619–2078.           • Conducting appropriate training
households;                                                                                and education;
   Number of Respondents: 890,826;          SUPPLEMENTARY INFORMATION:                       • Responding appropriately to
   Total Annual Responses: 3,563,304;       Background                                     detected offenses and developing
   Total Annual Hours: 296,942.                                                            corrective action;
   To obtain copies of the supporting          The creation of compliance program            • Developing open lines of
statement for the proposed paperwork        guidances is a major initiative of the         communication; and
collections referenced above, access        OIG in its effort to engage the private          • Enforcing disciplinary standards
HCFA’s Web Site Address at http://          health care community in preventing            through well-publicized guidelines.
www.hcfa.gov/regs/prdact95.htm, or E-       the submission of erroneous claims and           Similar components have been
mail your request, including your           in combating fraudulent conduct. In the        contained in previous guidances issued
address and phone number, to                past several years, the OIG has                by the OIG. However, unlike other
Paperwork@hcfa.gov, or call the Reports     developed and issued compliance                guidances issued by OIG, this guidance
Clearance Office on (410) 786–1326.         program guidances directed at a variety        for physicians does not suggest that
Written comments and                        of segments in the health care industry.       physician practices implement all seven
recommendations for the proposed            The development of these types of              components of a full scale compliance
information collections must be mailed      compliance program guidances is based          program. Instead, the guidance
within 30 days of this notice directly to   on our belief that a health care provider      emphasizes a step by step approach to
the OMB Desk Officer designated at the      can use internal controls to more              follow in developing and implementing
following address: OMB Human                efficiently monitor adherence to               a voluntary compliance program. This
Resources and Housing Branch,               applicable statutes, regulations and           change is in recognition of the financial
Attention: Allison Eydt, New Executive      program requirements.                          and staffing resource constraints faced
                              Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                             59435

by physician practices. The guidance                     program. While this document presents                    was to provide guidance to those
should not be viewed as mandatory or                     basic procedural and structural                          physician practices whose financial or
as an all-inclusive discussion of the                    guidance for designing a voluntary                       staffing resources would not allow them
advisable components of a compliance                     compliance program, it is not in and of                  to implement a full scale, institutionally
program. Rather, the document is                         itself a compliance program. Indeed, as                  structured compliance program as set
intended to present guidance to assist                   recognized by the OIG and the health                     forth in the Third Party Medical Billing
physician practices that voluntarily                     care industry, there is no ‘‘one size fits               Guidance or other previously released
choose to develop a compliance                           all’’ compliance program, especially for                 OIG guidance. A compliance program
program.                                                 physician practices. Rather, it is a set of              can be an important tool for physician
                                                         guidelines that physician practices can                  practices of all sizes and does not have
Office of Inspector General’s                            consider if they choose to develop and                   to be costly, resource-intensive or time-
Compliance Program Guidance for                          implement a compliance program.                          intensive.
Individual and Small Group Physician                        As with the OIG’s previous
Practices                                                guidance, 3 these guidelines are not                     B. Benefits of a Voluntary Compliance
I. Introduction                                          mandatory. Nor do they represent an all-                 Program
                                                         inclusive document containing all                           The OIG acknowledges that patient
   This compliance program guidance is
                                                         components of a compliance program.                      care is, and should be, the first priority
intended to assist individual and small
                                                         Other OIG outreach efforts, as well as                   of a physician practice. However, a
group physician practices (‘‘physician
                                                         other Federal agency efforts to promote                  practice’s focus on patient care can be
practices’’) 1 in developing a voluntary
                                                         compliance,4 can also be used in                         enhanced by the adoption of a voluntary
compliance program that promotes
                                                         developing a compliance program.
adherence to statutes and regulations                                                                             compliance program. For example, the
                                                         However, as explained later, if a
applicable to the Federal health care                                                                             increased accuracy of documentation
                                                         physician practice adopts a voluntary
programs (‘‘Federal health care program                                                                           that may result from a compliance
                                                         and active compliance program, it may
requirements’’). The goal of voluntary                                                                            program will actually assist in
                                                         well lead to benefits for the physician
compliance programs is to provide a                                                                               enhancing patient care. The OIG
                                                         practice.
tool to strengthen the efforts of health                                                                          believes that physician practices can
care providers to prevent and reduce                     A. Scope of the Voluntary Compliance                     realize numerous other benefits by
improper conduct. These programs can                     Program Guidance                                         implementing a compliance program. A
also benefit physician practices2 by                       This guidance focuses on voluntary                     well-designed compliance program can:
helping to streamline business                           compliance measures related to claims                       • Speed and optimize proper
operations.                                              submitted to the Federal health care                     payment of claims;
   Many physicians have expressed an                     programs. Issues related to private payor
interest in better protecting their                                                                                  • Minimize billing mistakes;
                                                         claims may also be covered by a
practices from the potential for                         compliance plan if the physician                            • Reduce the chances that an audit
erroneous or fraudulent conduct                          practice so desires.                                     will be conducted by HCFA or the OIG;
through the implementation of                              The guidance is also limited in scope                  and
voluntary compliance programs. The                       by focusing on the development of                           • Avoid conflicts with the self-
Office of Inspector General (OIG)                        voluntary compliance programs for                        referral and anti-kickback statutes.
believes that the great majority of                      individual and small group physician                        The incorporation of compliance
physicians are honest and share our goal                 practices. The difference between a                      measures into a physician practice
of protecting the integrity of Medicare                  small practice and a large practice                      should not be at the expense of patient
and other Federal health care programs.                  cannot be determined by stating a                        care, but instead should augment the
To that end, all health care providers                   particular number of physicians.                         ability of the physician practice to
have a duty to ensure that the claims                    Instead, our intent in narrowing the                     provide quality patient care.
submitted to Federal health care                         guidance to the small practices subset
programs are true and accurate. The                                                                                  Voluntary compliance programs also
development of voluntary compliance                        3 Currently, the OIG has issued compliance             provide benefits by not only helping to
programs and the active application of                   program guidance for the following eight industry        prevent erroneous or fraudulent claims,
compliance principles in physician                       sectors: hospitals, clinical laboratories, home health   but also by showing that the physician
                                                         agencies, durable medical equipment suppliers,           practice is making additional good faith
practices will go a long way toward                      third-party medical billing companies, hospices,
achieving this goal.                                     Medicare+Choice organizations offering
                                                                                                                  efforts to submit claims appropriately.
   Through this document, the OIG                        coordinated care plans, and nursing facilities. The      Physicians should view compliance
provides its views on the fundamental                    guidance listed here and referenced in this              programs as analogous to practicing
                                                         document is available on the OIG web site at http:/      preventive medicine for their practice.
components of physician practice                         /www.hhs.gov/oig in the Electronic Reading Room
compliance programs, as well as the                      or by calling the OIG Public Affairs office at (202)
                                                                                                                  Practices that embrace the active
principles that a physician practice                     619–1343.                                                application of compliance principles in
might consider when developing and                         4 The OIG has issued Advisory Opinions                 their practice culture and put efforts
implementing a voluntary compliance                      responding to specific inquiries concerning the          towards compliance on a continued
                                                         application of the OIG’s authorities, in particular,     basis can help to prevent problems from
                                                         the anti-kickback statute, and Special Fraud Alerts
   1 For the purpose of this guidance, the term
                                                         setting forth activities that raise legal and            occurring in the future.
‘‘physician’’ is defined as: (1) a doctor of medicine    enforcement issues. These documents, as well as             A compliance program also sends an
or osteopathy; (2) a doctor of dental surgery or of      reports from the OIG’s Office of Audit Services and
dental medicine; (3) a podiatrist; (4) an optometrist;   Office of Evaluation and Inspections can be
                                                                                                                  important message to a physician
or (5) a chiropractor, all of whom must be               obtained via the Internet address or phone number        practice’s employees that while the
appropriately licensed by the State. 42 U.S.C.           provided in Footnote 3. Physician practices can also     practice recognizes that mistakes will
1395x(r).                                                review the Health Care Financing Administration          occur, employees have an affirmative,
   2 Much of this guidance can also apply to other       (HCFA) web site on the Internet at http://
independent practitioners, such as psychologists,        www.hcfa.gov, for up-to-date regulations, manuals,
                                                                                                                  ethical duty to come forward and report
physical therapists, speech language pathologists,       and program memoranda related to the Medicare            erroneous or fraudulent conduct, so that
and occupational therapists.                             and Medicaid programs.                                   it may be corrected.
59436                      Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

C. Application of Voluntary Compliance        innocent errors (‘‘erroneous claims’’) on     development of written standards and
Program Guidance                              one hand, and reckless or intentional         procedures;
  The applicability of these                  conduct (‘‘fraudulent claims’’) on the           • Designating a compliance officer or
recommendations will depend on the            other. For criminal penalties, the            contact(s) to monitor compliance efforts
circumstances and resources of the            standard is even higher—criminal intent       and enforce practice standards;
particular physician practice.                to defraud must be proved beyond a               • Conducting appropriate training
  Each physician practice can                 reasonable doubt.                             and education on practice standards and
undertake reasonable steps to                    Third, even ethical physicians (and        procedures;
implement compliance measures,                their staffs) make billing mistakes and          • Responding appropriately to
depending on the size and resources of        errors through inadvertence or                detected violations through the
that practice. Physician practices can        negligence. When physicians discover          investigation of allegations and the
rely, at least in part, upon standard         that their billing errors, honest mistakes,   disclosure of incidents to appropriate
protocols and current practice                or negligence result in erroneous claims,     Government entities;
procedures to develop an appropriate          the physician practice should return the         • Developing open lines of
compliance program for that practice. In      funds erroneously claimed, but without        communication, such as (1) discussions
fact, many physician practices already        penalties. In other words, absent a           at staff meetings regarding how to avoid
have established the framework of a           violation of a civil, criminal or             erroneous or fraudulent conduct and (2)
compliance program without referring          administrative law, erroneous claims          community bulletin boards, to keep
to it as such.                                result only in the return of funds            practice employees updated regarding
D. The Difference Between ‘‘Erroneous’’       claimed in error.                             compliance activities; and
and ‘‘Fraudulent’’ Claims To Federal             Fourth, innocent billing errors are a         • Enforcing disciplinary standards
Health Programs                               significant drain on the Federal health       through well-publicized guidelines.
                                              care programs. All parties (physicians,          These seven components provide a
   There appear to be significant             providers, carriers, fiscal intermediaries,   solid basis upon which a physician
misunderstandings within the physician        Government agencies, and beneficiaries)       practice can create a compliance
community regarding the critical              need to work cooperatively to reduce          program. The OIG acknowledges that
differences between what the                  the overall error rate.                       full implementation of all components
Government views as innocent                                                                may not be feasible for all physician
‘‘erroneous’’ claims on the one hand and         Finally, it is reasonable for physicians
                                              (and other providers) to ask: what duty       practices. Some physician practices may
‘‘fraudulent’’ (intentionally or recklessly                                                 never fully implement all of the
false) health care claims on the other.       do they owe the Federal health care
                                              programs? The answer is that all health       components. However, as a first step,
Some physicians feel that Federal law                                                       physician practices can begin by
enforcement agencies have maligned            care providers have a duty to reasonably
                                              ensure that the claims submitted to           adopting only those components which,
medical professionals, in part, by a                                                        based on a practice’s specific history
perceived focus on innocent billing           Medicare and other Federal health care
                                              programs are true and accurate. The OIG       with billing problems and other
errors. These physicians are under the                                                      compliance issues, are most likely to
impression that innocent billing errors       continues to engage the provider
                                              community in an extensive, good faith         provide an identifiable benefit.
can subject them to civil penalties, or
                                              effort to work cooperatively on                  The extent of implementation will
even jail. These impressions are
                                              voluntary compliance to minimize              depend on the size and resources of the
mistaken.
   To address these concerns, the OIG         errors and to prevent potential penalties     practice. Smaller physician practices
would like to emphasize the following         for improper billings before they occur.      may incorporate each of the components
points. First, the OIG does not disparage     We encourage all physicians and other         in a manner that best suits the practice.
physicians, other medical professionals       providers to join in this effort.             By contrast, larger physician practices
or medical enterprises. In our view, the                                                    often have the means to incorporate the
                                              II. Developing a Voluntary Compliance         components in a more systematic
great majority of physicians are working      Program
ethically to render high quality medical                                                    manner. For example, larger physician
care and to submit proper claims.             A. The Seven Basic Components of a            practices can use both this guidance and
   Second, under the law, physicians are      Voluntary Compliance Program                  the Third-Party Medical Billing
not subject to criminal, civil or                                                           Compliance Program Guidance, which
                                                 The OIG believes that a basic              provides a more detailed compliance
administrative penalties for innocent
                                              framework for any voluntary                   program structure, to create a
errors, or even negligence. The
                                              compliance program begins with a              compliance program unique to the
Government’s primary enforcement tool,
                                              review of the seven basic components of       practice.
the civil False Claims Act, covers only
                                              an effective compliance program. A               The OIG recognizes that physician
offenses that are committed with actual
                                              review of these components provides           practices need to find the best way to
knowledge of the falsity of the claim,
                                              physician practices with an overview of       achieve compliance for their given
reckless disregard, or deliberate
ignorance of the falsity of the claim.5       the scope of a fully developed and            circumstances. Specifically, the OIG
The False Claims Act does not                 implemented compliance program. The           encourages physician practices to
encompass mistakes, errors, or                following list of components, as set          participate in other provider’s
negligence. The Civil Monetary                forth in previous OIG compliance              compliance programs, such as the
Penalties Law, an administrative              program guidances, can form the basis         compliance programs of the hospitals or
remedy, similar in scope and effect to        of a voluntary compliance program for         other settings in which the physicians
the False Claims Act, has exactly the         a physician practice:                         practice. Physician Practice
same standard of proof.6 The OIG is              • Conducting internal monitoring and       Management companies also may serve
very mindful of the difference between        auditing through the performance of           as a source of compliance program
                                              periodic audits;                              guidance. A physician practice’s
 5 31   U.S.C. 3729.                             • Implementing compliance and              participation in such compliance
 6 42   U.S.C. 1320a–7a.                      practice standards through the                programs could be a way, at least partly,
                       Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                      59437

to augment the practice’s own                 program. The steps outlined below             Billing Compliance Program Guidance,
compliance efforts.                           articulate all seven components of a          the OIG recommended that a baseline,
   The opportunities for collaborative        compliance program and there are              or ‘‘snapshot,’’ be used to enable a
compliance efforts could include              numerous suggestions for                      practice to judge over time its progress
participating in training and education       implementation within each                    in reducing or eliminating potential
programs or using another entity’s            component. Physician practices should         areas of vulnerability. This practice,
policies and procedures as a template         keep in mind, as stated earlier, that it is   known as ‘‘benchmarking,’’ allows a
from which the physician practice             up to the practice to determine the           practice to chart its compliance efforts
creates its own version. The OIG              manner in which and the extent to             by showing a reduction or increase in
encourages this type of collaborative         which the practice chooses to                 the number of claims paid and denied.
effort, where the content is appropriate      implement these voluntary measures.              The practice’s self-audits can be used
to the setting involved (i.e., the training                                                 to determine whether:
                                              Step One: Auditing and Monitoring
is relevant to physician practices as well                                                     • Bills are accurately coded and
as the sponsoring provider), because it          An ongoing evaluation process is           accurately reflect the services provided
provides a means to promote the desired       important to a successful compliance          (as documented in the medical records);
objective without imposing excessive          program. This ongoing evaluation                 • Documentation is being completed
burdens on the practice or requiring          includes not only whether the physician       correctly;
physicians to undertake duplicative           practice’s standards and procedures are          • Services or items provided are
action. However, to prevent possible          in fact current and accurate, but also        reasonable and necessary; and
anti-kickback or self-referral issues, the    whether the compliance program is                • Any incentives for unnecessary
OIG recommends that physicians                working, i.e., whether individuals are        services exist.
consider limiting their participation in a    properly carrying out their                      A baseline audit examines the claim
sponsoring provider’s compliance              responsibilities and claims are               development and submission process,
program to the areas of training and          submitted appropriately. Therefore, an        from patient intake through claim
education or policies and procedures.         audit is an excellent way for a physician     submission and payment, and identifies
   The key to avoiding possible conflicts     practice to ascertain what, if any,           elements within this process that may
is to ensure that the entity providing        problem areas exist and focus on the          contribute to non-compliance or that
compliance services to a physician            risk areas that are associated with those     may need to be the focus for improving
practice (its referral source) is not         problems. There are two types of              execution.7 This audit will establish a
perceived as nor is it operating the          reviews that can be performed as part of      consistent methodology for selecting
practice compliance program at no             this evaluation: (1) A standards and          and examining records, and this
charge. For example, if the sponsoring        procedures review; and (2) a claims           methodology will then serve as a basis
entity conducted claims review for the        submission audit.                             for future audits.
physician practice as part of a                                                                There are many ways to conduct a
compliance program or provided                1. Standards and Procedures
                                                                                            baseline audit. The OIG recommends
compliance oversight without charging            It is recommended that an                  that claims/services that were submitted
the practice fair market value for those      individual(s) in the physician practice       and paid during the initial three months
services, the anti-kickback and Stark         be charged with the responsibility of         after implementation of the education
self-referral laws would be implicated.       periodically reviewing the practice’s         and training program be examined, so as
The payment of fair market value by           standards and procedures to determine         to give the physician practice a
referral sources for compliance services      if they are current and complete. If the      benchmark against which to measure
will generally address these concerns.        standards and procedures are found to         future compliance effectiveness.
                                              be ineffective or outdated, they should          Following the baseline audit, a
B. Steps for Implementing a Voluntary         be updated to reflect changes in
Compliance Program                                                                          general recommendation is that periodic
                                              Government regulations or                     audits be conducted at least once each
  As previously discussed,                    compendiums generally relied upon by          year to ensure that the compliance
implementing a voluntary compliance           physicians and insurers (i.e., changes in     program is being followed. Optimally, a
program can be a multi-tiered process.        Current Procedural Terminology (CPT)          randomly selected number of medical
Initial development of the compliance         and ICD–9–CM codes).                          records could be reviewed to ensure that
program can be focused on practice risk                                                     the coding was performed accurately.
areas that have been problematic for the      2. Claims Submission Audit
                                                                                            Although there is no set formula to how
practice such as coding and billing.             In addition to the standards and
                                                                                            many medical records should be
Within this area, the practice should         procedures themselves, it is advisable
                                                                                            reviewed, a basic guide is five or more
examine its claims denial history or          that bills and medical records be
                                                                                            medical records per Federal payor (i.e.,
claims that have resulted in repeated         reviewed for compliance with
                                                                                            Medicare, Medicaid), or five to ten
overpayments, and identify and correct        applicable coding, billing and
                                                                                            medical records per physician. The OIG
the most frequent sources of those            documentation requirements. The
                                                                                            realizes that physician practices receive
denials or overpayments. A review of          individuals from the physician practice
                                                                                            reimbursement from a number of
claim denials will help the practice          involved in these self-audits would
                                                                                            different payors, and we would
scrutinize a significant risk area and        ideally include the person in charge of
                                                                                            encourage a physician practice’s
improve its cash flow by submitting           billing (if the practice has such a
                                                                                            auditing/monitoring process to consist
correct claims that will be paid the first    person) and a medically trained person
                                                                                            of a review of claims from all Federal
time they are submitted. As this              (e.g., registered nurse or preferably a
                                                                                            payors from which the practice receives
example illustrates, a compliance             physician (physicians can rotate in this
                                                                                            reimbursement. Of course, the larger the
program for a physician practice often        position)). Each physician practice
                                                                                            sample size, the larger the comfort level
makes sound business sense.                   needs to decide for itself whether to
  The following is a suggested order of       review claims retrospectively or                7 See Appendix D.II. referencing the Provider
the steps a practice could take to begin      concurrently with the claims                  Self-Disclosure Protocol for information on how to
the development of a compliance               submission. In the Third-Party Medical        conduct a baseline audit.
59438                  Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

the physician practice will have about        Step 2: Establish Practice Standards and            written standards and procedures
the results. However, the OIG is aware        Procedures                                          manual; and (2) updating clinical forms
that this may be burdensome for some             After the internal audit identifies the          periodically to make sure they facilitate
physician practices, so, at a minimum,        practice’s risk areas, the next step is to          and encourage clear and complete
we would encourage the physician              develop a method for dealing with those             documentation of patient care. A
practice to conduct a review of claims        risk areas through the practice’s                   practice’s standards could also identify
that have been reimbursed by Federal          standards and procedures. Written                   the clinical protocol(s), pathway(s), and
health care programs.                         standards and procedures are a central              other treatment guidelines followed by
   If problems are identified, the            component of any compliance program.                the practice.
physician practice will need to               Those standards and procedures help to                 Creating a resource manual from
determine whether a focused review            reduce the prospect of erroneous claims             publicly available information may be a
should be conducted on a more frequent        and fraudulent activity by identifying              cost-effective approach for developing
basis. When audit results reveal areas        risk areas for the practice and                     additional standards and procedures.
needing additional information or             establishing tighter internal controls to           For example, the practice can develop a
education of employees and physicians,        counter those risks, while also helping             ‘‘binder’’ that contains the practice’s
the physician practice will need to           to identify any aberrant billing                    written standards and procedures,
analyze whether these areas should be         practices. Many physician practices                 relevant HCFA directives and carrier
incorporated into the training and            already have something similar to this              bulletins, and summaries of informative
educational system.                           called ‘‘practice standards’’ that include          OIG documents (e.g., Special Fraud
   There are many ways to identify the        practice policy statements regarding                Alerts, Advisory Opinions, inspection
claims/services from which to draw the        patient care, personnel matters and                 and audit reports).9 If the practice
random sample of claims to be audited.        practice standards and procedures on                chooses to adopt this idea, the binder
One methodology is to choose a random         complying with Federal and State law.               should be updated as appropriate and
sample of claims/services from either all        The OIG believes that written                    located in a readily accessible location.
                                              standards and procedures can be helpful                If updates to the standards and
of the claims/services a physician has
                                              to all physician practices, regardless of           procedures are necessary, those updates
received reimbursement for or all
                                              size and capability. If a lack of resources         should be communicated to employees
claims/services from a particular payor.
                                              to develop such standards and                       to keep them informed regarding the
Another method is to identify risk areas
                                              procedures is genuinely an issue, the               practice’s operations. New employees
or potential billing vulnerabilities. The
                                              OIG recommends that a physician                     can be made aware of the standards and
codes associated with these risk areas
                                              practice focus first on those risk areas            procedures when hired and can be
may become the universe of claims/
                                              most likely to arise in its particular              trained on their contents as part of their
services from which to select the                                                                 orientation to the practice. The OIG
sample. The OIG recommends that the           practice.8 Additionally, if the physician
                                              practice works with a physician practice            recommends that the communication of
physician practice evaluate claims/                                                               updates and training of new employees
services selected to determine if the         management company (PPMC),
                                              independent practice association (IPA),             occur as soon as possible after either the
codes billed and reimbursed were                                                                  issuance of a new update or the hiring
accurately ordered, performed, and            physician-hospital organization,
                                              management services organization                    of a new employee.
reasonable and necessary for the
treatment of the patient.                     (MSO) or third-party billing company,               1. Specific Risk Areas
   One of the most important                  the practice can incorporate the                       The OIG recognizes that many
components of a successful compliance         compliance standards and procedures of              physician practices may not have in
audit protocol is an appropriate              those entities, if appropriate, into its            place standards and procedures to
response when the physician practice          own standards and procedures. Many                  prevent erroneous or fraudulent conduct
identifies a problem. This action should      physician practices have found that the             in their practices. In order to develop
be taken as soon as possible after the        adoption of a third party’s compliance              standards and procedures, the physician
date the problem is identified. The           standards and procedures, as                        practice may consider what types of
specific action a physician practice          appropriate, has many benefits and the              fraud and abuse related topics need to
takes should depend on the                    result is a consistent set of standards             be addressed based on its specific
circumstances of the situation. In some       and procedures for a community of                   needs. One of the most important things
cases, the response can be as straight        physicians as well as having just one               in making that determination is a listing
forward as generating a repayment with        entity that can then monitor and refine             of risk areas where the practice may be
appropriate explanation to Medicare or        the process as needed. This sharing of              vulnerable.
the appropriate payor from which the          compliance responsibilities assists                    To assist physician practices in
overpayment was received. In others,          physician practices in rural areas that             performing this initial assessment, the
the physician practice may want to            do not have the staff to perform these              OIG has developed a list of four
consult with a coding/billing expert to       functions, but do belong to a group that            potential risk areas affecting physician
determine the next best course of action.     does have the resources. Physician                  practices. These risk areas include: (a)
There is no boilerplate solution to how       practices using another entity’s                    Coding and billing; (b) reasonable and
to handle problems that are identified.       compliance materials will need to tailor            necessary services; (c) documentation;
   It is a good business practice to create   those materials to the physician practice
a system to address how physician             where they will be applied.                           9 The OIG and HCFA are working to compile a list


practices will respond to and report             Physician practices that do not have             of basic documents issued by both entities that
                                              standards or procedures in place can                could be included in such a binder. We expect to
potential problems. In addition,                                                                  complete this list later this fall, and will post it on
preserving information relating to            develop them by: (1) Developing a                   the OIG and HCFA web sites, as well as publicize
identification of the problem is as                                                               this list to physician organizations and
                                                8 Physician practices with laboratories or        representatives (information on how to contact the
important as preserving information that      arrangements with third-party billing companies     OIG is contained in Footnote 3; HCFA information
tracks the physician practice’s reaction      can also check the risk areas included in the OIG   can be obtained at www.hcfa.gov/medlearn or by
to, and solution for, the issue.              compliance program guidance for those industries.   calling 1–800–MEDICARE).
                            Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                                       59439

and (d) improper inducements,                             • Billing for non-covered services as                 Federal, State or private payor health
kickbacks and self-referrals. This list of             if covered; 15                                           care program requirements and should
risk areas is not exhaustive, or all-                     • Knowing misuse of provider                          be developed in tandem with coding
encompassing. Rather, it should be                     identification numbers, which results in                 and billing standards used in the
viewed as a starting point for an internal             improper billing; 16                                     physician practice. Furthermore, written
review of potential vulnerabilities                       • Unbundling (billing for each                        standards and procedures should ensure
within the physician practice.10 The                   component of the service instead of                      that coding and billing are based on
objective of such an assessment is to                  billing or using an all-inclusive code); 17              medical record documentation.
ensure that key personnel in the                          • Failure to properly use coding                      Particular attention should be paid to
physician practice are aware of these                  modifiers; 18                                            issues of appropriate diagnosis codes
major risk areas and that steps are taken                 • Clustering; 19 and                                  and individual Medicare Part B claims
to minimize, to the extent possible, the                  • Upcoding the level of service                       (including documentation guidelines for
types of problems identified. While                    provided.20                                              evaluation and management services).22
there are many ways to accomplish this                    The physician practice written                        A physician practice can also institute
objective, clear written standards and                 standards and procedures concerning                      a policy that the coder and/or physician
procedures that are communicated to all                proper coding reflect the current                        review all rejected claims pertaining to
employees are important to ensure the                  reimbursement principles set forth in                    diagnosis and procedure codes. This
effectiveness of a compliance program.                 applicable statutes, regulations 21 and                  step can facilitate a reduction in similar
Specifically, the following are                                                                                 errors.
discussions of risk areas for physician                systematic or repeated double billing—can create
                                                       liability under criminal, civil, and/or administrative
                                                                                                                   b. Reasonable and Necessary Services.
practices: 11                                          law.                                                     A practice’s compliance program may
   a. Coding and Billing. A major part of                 15 For example, Dr. Y bills Medicare using a          provide guidance that claims are to be
any physician practice’s compliance                    covered office visit code when the actual service        submitted only for services that the
program is the identification of risk                  was a non-covered annual physical. Physician             physician practice finds to be
areas associated with coding and billing.              practices should remember that ‘‘necessary’’ does
                                                       not always constitute ‘‘covered’’ and that this          reasonable and necessary in the
The following risk areas associated with               example is a misrepresentation of services to the        particular case. The OIG recognizes that
billing have been among the most                       Federal health care programs.                            physicians should be able to order any
frequent subjects of investigations and                   16 An example of this is when the practice bills
                                                                                                                tests, including screening tests, they
audits by the OIG:                                     for a service performed by Dr. B, who has not yet
                                                                                                                believe are appropriate for the treatment
   • Billing for items or services not                 been issued a Medicare provider number, using Dr.
                                                       A’s Medicare provider number. Physician practices        of their patients. However, a physician
rendered or not provided as claimed; 12                need to bill using the correct Medicare provider         practice should be aware that Medicare
   • Submitting claims for equipment,                  number, even if that means delaying billing until        will only pay for services that meet the
medical supplies and services that are                 the physician receives his/her provider number.
                                                                                                                Medicare definition of reasonable and
                                                          17 Unbundling is the practice of a physician
not reasonable and necessary; 13                                                                                necessary.23
   • Double billing resulting in                       billing for multiple components of a service that
                                                                                                                   Medicare (and many insurance plans)
                                                       must be included in a single fee. For example, if
duplicate payment; 14                                  dressings and instruments are included in a fee for      may deny payment for a service that is
                                                       a minor procedure, the provider may not also bill        not reasonable and necessary according
   10 Physician practices seeking additional           separately for the dressings and instruments.
guidance on potential risk areas can review the           18 A modifier, as defined by the CPT–4 manual,
                                                                                                                to the Medicare reimbursement rules.
OIG’s Work Plan to identify vulnerabilities and risk   provides the means by which a physician practice         Thus, when a physician provides
areas on which the OIG will focus in the future. In    can indicate a service or procedure that has been        services to a Medicare beneficiary, he or
addition, physician practices can also review the      performed has been altered by some specific              she should only bill those services that
OIG’s semiannual reports, which identify program       circumstance, but not changed in its definition or
vulnerabilities and risk areas that the OIG has        code. Assuming the modifier is used correctly and
                                                                                                                meet the Medicare standard of being
targeted during the preceding six months. All of       appropriately, this specificity provides the             reasonable and necessary for the
these documents are available on the OIG’s             justification for payment for those services. For        diagnosis and treatment of a patient. A
webpage at http://www.hhs.gov/oig.                     correct use of modifiers, the physician practice         physician practice can bill in order to
   11 Appendix A of this document lists additional     should reference the appropriate sections of the
risk areas that a physician practice may want to       Medicare Provider Manual. See Medicare Carrier
                                                                                                                receive a denial for services, but only if
review and incorporate into their practice standards   Manual Section 4630. For general information on          the denial is needed for reimbursement
and procedures.                                        the correct use of modifiers, a physician practice       from the secondary payor. Upon
   12 For example, Dr. X, an ophthalmologist, billed   can consult the National Correct Coding Initiative       request, the physician practice should
for laser surgery he did not perform. As one element   (NCCI). See Appendix F for information on how to
                                                       download the NCCI edits. The NCCI coding edits
                                                                                                                be able to provide documentation, such
of proof, he did not even have laser equipment or
access to such equipment at the place of service       are updated on a quarterly basis and are used to         as a patient’s medical records and
designated on the claim form where he performed        process claims and determine payments to
the surgery.                                           physicians.                                              Administration Common Procedure Coding System
   13 Billing for services, supplies and equipment        19 This is the practice of coding/charging one or     (HCPCS) (and its successors); and Physicians’ CPT.
that are not reasonable and necessary involves         two middle levels of service codes exclusively,          In addition, there are specialized coding systems for
seeking reimbursement for a service that is not        under the philosophy that some will be higher,           specific segments of the health care industry.
warranted by a patient’s documented medical            some lower, and the charges will average out over        Among these are ADA (for dental procedures), DSM
condition. See 42 U.S.C. 1395i(a)(1)(A) (‘‘no          an extended period (in reality, this overcharges         IV (psychiatric health benefits) and DMERCs (for
payment may be made under part A or part B [of         some patients while undercharging others).               durable medical equipment, prosthetics, orthotics
Medicare] for any expenses incurred for items or          20 Upcoding is billing for a more expensive           and supplies).
services which * * * are not reasonable and            service than the one actually performed. For               22 The failure of a physician practice to: (i)

necessary for the diagnosis or treatment of illness    example, Dr. X intentionally bills at a higher           document items and services rendered; and (ii)
or injury or to improve the functioning of the         evaluation and management (E&M) code than what           properly submit the corresponding claims for
malformed body member’’). See also Appendix A          he actually renders to the patient.                      reimbursement is a major area of potential
for further discussion on this topic.                     21 The official coding guidelines are promulgated     erroneous or fraudulent conduct involving Federal
   14 Double billing occurs when a physician bills     by HCFA, the National Center for Health Statistics,      health care programs. The OIG has undertaken
for the same item or service more than once or         the American Hospital Association, the American          numerous audits, investigations, inspections and
another party billed the Federal health care program   Medical Association and the American Health              national enforcement initiatives in these areas.
for an item or service also billed by the physician.   Information Management Association. See                    23 ‘‘* * * for the diagnosis or treatment of illness

Although duplicate billing can occur due to simple     International Classification of Diseases, 9th            or injury or to improve the functioning of a
error, the knowing submission of duplicate             Revision, Clinical Modification (ICD–9 CM)(and its       malformed body member.’’ 42 U.S.C.
claims—which is sometimes evidenced by                 successors); 1998 Health Care Financing                  1395y(a)(1)(A).
59440                      Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

physician’s orders, to support the                     The CPT and ICD–9–CM codes                            programs, and result in unfair
appropriateness of a service that the                reported on the health insurance claims                 competition by shutting out competitors
physician has provided.                              form should be supported by                             who are unwilling to pay for referrals.
   c. Documentation. Timely, accurate                documentation in the medical record                     Remuneration for referrals can also
and complete documentation is                        and the medical chart should contain all                affect the quality of patient care by
important to clinical patient care. This             necessary information. Additionally,                    encouraging physicians to order services
same documentation serves as a second                HCFA and the local carriers should be                   or supplies based on profit rather than
function when a bill is submitted for                able to determine the person who                        the patients’ best medical interests.27
payment, namely, as verification that                provided the services. These issues can
the bill is accurate as submitted.                                                                              In particular, arrangements with
                                                     be the root of investigations of
Therefore, one of the most important                                                                         hospitals, hospices, nursing facilities,
                                                     inappropriate or erroneous conduct, and
physician practice compliance issues is                                                                      home health agencies, durable medical
                                                     have been identified by HCFA and the
the appropriate documentation of                                                                             equipment suppliers, pharmaceutical
                                                     OIG as a leading cause of improper
diagnosis and treatment. Physician                   payments.                                               manufacturers and vendors are areas of
documentation is necessary to                          One method for improving quality in                   potential concern. In general the anti-
determine the appropriate medical                    documentation is for a physician                        kickback statute prohibits knowingly
treatment for the patient and is the basis           practice to compare the practice’s claim                and willfully giving or receiving
for coding and billing determinations.               denial rate to the rates of other practices             anything of value to induce referrals of
Thorough and accurate documentation                  in the same specialty to the extent that                Federal health care program business. It
also helps to ensure accurate recording              the practice can obtain that information                is generally recommended that all
and timely transmission of information.              from the carrier. Physician coding and                  business arrangements wherein
   i. Medical Record Documentation. In               diagnosis distribution can be compared                  physician practices refer business to, or
addition to facilitating high quality                for each physician within the same                      order services or items from, an outside
patient care, a properly documented                  specialty to identify variances.                        entity should be on a fair market value
medical record verifies and documents                  ii. HCFA 1500 Form. Another                           basis.28 Whenever a physician practice
precisely what services were actually                documentation area for physician                        intends to enter into a business
provided. The medical record may be                  practices to monitor closely is the                     arrangement that involves making
used to validate: (a) The site of the                proper completion of the HCFA 1500                      referrals, the arrangement should be
service; (b) the appropriateness of the              form. The following practices will help                 reviewed by legal counsel familiar with
services provided; (c) the accuracy of               ensure that the form has been properly                  the anti-kickback statute and physician
the billing; and (d) the identity of the             completed:                                              self-referral statute.
care giver (service provider). Examples                • Link the diagnosis code with the
of internal documentation guidelines a                                                                          In addition to developing standards
                                                     reason for the visit or service;                        and procedures to address arrangements
practice might use to ensure accurate
                                                       • Use modifiers appropriately;                        with other health care providers and
medical record documentation include
                                                       • Provide Medicare with all                           suppliers, physician practices should
the following: 24
   • The medical record is complete and              information about a beneficiary’s other                 also consider implementing measures to
legible;                                             insurance coverage under the Medicare                   avoid offering inappropriate
   • The documentation of each patient               Secondary Payor (MSP) policy, if the                    inducements to patients.29 Examples of
encounter includes the reason for the                practice is aware of a beneficiary’s                    such inducements include routinely
encounter; any relevant history;                     additional coverage.                                    waiving coinsurance or deductible
physical examination findings; prior                   d. Improper Inducements, Kickbacks                    amounts without a good faith
diagnostic test results; assessment,                 and Self-Referrals. A physician practice                determination that the patient is in
clinical impression, or diagnosis; plan              would be well advised to have                           financial need or failing to make
of care; and date and legible identity of            standards and procedures that
                                                                                                             reasonable efforts to collect the cost-
the observer;                                        encourage compliance with the anti-
                                                                                                             sharing amount.30
   • If not documented, the rationale for            kickback statute 25 and the physician
ordering diagnostic and other ancillary              self-referral law.26 Remuneration for                      Possible risk factors relating to this
services can be easily inferred by an                referrals is illegal because it can distort             risk area that could be addressed in the
independent reviewer or third party                  medical decision-making, cause                          practice’s standards and procedures
who has appropriate medical training;                overutilization of services or supplies,                include:
   • CPT and ICD–9–CM codes used for                 increase costs to Federal health care                      • Financial arrangements with
claims submission are supported by                                                                           outside entities to whom the practice
                                                       25 The anti-kickback statute provides criminal
documentation and the medical record;
                                                     penalties for individuals and entities that
and                                                  knowingly offer, pay, solicit, or receive bribes or
                                                                                                               27 See Appendix B for additional information on

   • Appropriate health risk factors are             kickbacks or other remuneration in order to induce      the anti-kickback statute.
identified. The patient’s progress, his or           business reimbursable by Federal health care              28 The OIG’s definition of ‘‘fair market value’’

her response to, and any changes in,                 programs. See 42 U.S.C. 1320a–7b(b). Civil              excludes any value attributable to referrals of
                                                     penalties, exclusion from participation in the          Federal program business or the ability to influence
treatment, and any revision in diagnosis             Federal health care programs, and civil False           the flow of such business. See 42 U.S.C.
is documented.                                       Claims Act liability may also result from a violation   1395nn(h)(3). Adhering to the rule of keeping
                                                     of the prohibition. See 42 U.S.C. 1320a–7a(a)(5), 42    business arrangements at fair market value is not a
  24 For additional information on proper            U.S.C. 1320a–7(b)(7), and 31 U.S.C. 3729–3733.          guarantee of legality, but is a highly useful general
documentation, physician practices should also         26 The physician self-referral law, 42 U.S.C.         rule.
                                                                                                               29 See 42 U.S.C. 1320a–7a(a)(5).
reference the Documentation Guidelines for           1395nn (also known as the ‘‘Stark law’’), prohibits
Evaluation and Management Services, published by     a physician from making a referral to an entity with      30 In the OIG Special Fraud Alert ‘‘Routine

HCFA. Currently, physicians may document based       which the physician or any member of the                Waiver of Part B Co-payments/Deductibles’’ (May
on the 1995 or 1997 E&M Guidelines, whichever is     physician’s immediate family has a financial            1991), the OIG describes several reasons why
most advantageous to the physician. A new set of     relationship if the referral is for the furnishing of   routine waivers of these cost-sharing amounts pose
draft guidelines were announced in June 2000, and    designated health services, unless the financial        concerns. The Alert sets forth the circumstances
are undergoing pilot testing and revision, but are   relationship fits into an exception set forth in the    under which it may be appropriate to waive these
not in current use.                                  statute or implementing regulations.                    amounts. See also 42 U.S.C. 1320a–7a(a)(5).
                             Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                             59441

may refer Federal health care program                    documenting investigations of potential                    • Standards and procedures can
business;31                                              violations uncovered by the compliance                  stipulate the disposition of medical
   • Joint ventures with entities                        program and the resulting remedial                      records in the event the practice is sold
supplying goods or services to the                       action. Although there is no                            or closed.
physician practice or its patients;32                    requirement that the practice retain its
   • Consulting contracts or medical                                                                             Step Three: Designation of a
                                                         compliance records, having all the                      Compliance Officer/Contact(s)
directorships;                                           relevant documentation relating to the
   • Office and equipment leases with                    practice’s compliance efforts or                           After the audits have been completed
entities to which the physician refers;                  handling of a particular problem can                    and the risk areas identified, ideally one
and                                                      benefit the practice should it ever be                  member of the physician practice staff
   • Soliciting, accepting or offering any               questioned regarding those activities.                  needs to accept the responsibility of
gift or gratuity of more than nominal                                                                            developing a corrective action plan, if
                                                            Physician practices that implement a
value to or from those who may benefit                                                                           necessary, and oversee the practice’s
                                                         compliance program might also want to
from a physician practice’s referral of                                                                          adherence to that plan. This person can
                                                         provide for the development and
Federal health care program business.33                                                                          either be in charge of all compliance
   In order to keep current with this area               implementation of a records retention
                                                         system. This system would establish                     activities for the practice or play a
of the law, a physician practice may                                                                             limited role merely to resolve the
obtain copies, available on the OIG web                  standards and procedures regarding the
                                                         creation, distribution, retention, and                  current issue. In a formalized
site or in hard copy from the OIG, of all                                                                        institutional compliance program there
relevant OIG Special Fraud Alerts and                    destruction of documents. If the practice
                                                                                                                 is a compliance officer who is
Advisory Opinions that address the                       decides to design a record system,
                                                                                                                 responsible for overseeing the
application of the anti-kickback and                     privacy concerns and Federal or State
                                                                                                                 implementation and day-to-day
physician self-referral laws to ensure                   regulatory requirements should be taken
                                                                                                                 operations of the compliance program.
that the standards and procedures                        into consideration.34
                                                                                                                 However, the resource constraints of
reflect current positions and opinions.                     While conducting its compliance                      physician practices make it so that it is
                                                         activities, as well as its daily operations,            often impossible to designate one
2. Retention of Records                                  a physician practice would be well                      person to be in charge of compliance
   In light of the documentation                         advised, to the extent it is possible, to               functions.
requirements faced by physician                          document its efforts to comply with                        It is acceptable for a physician
practices, it would be to the practice’s                 applicable Federal health care program                  practice to designate more than one
benefit if its standards and procedures                  requirements. For example, if a                         employee with compliance monitoring
contained a section on the retention of                  physician practice requests advice from                 responsibility. In lieu of having a
compliance, business and medical                         a Government agency (including a                        designated compliance officer, the
records. These records primarily                         Medicare carrier) charged with                          physician practice could instead
include documents relating to patient                    administering a Federal health care                     describe in its standards and procedures
care and the practice’s business                         program, it is to the benefit of the                    the compliance functions for which
activities. A physician practice’s                       practice to document and retain a record                designated employees, known as
designated compliance contact could                      of the request and any written or oral                  ‘‘compliance contacts,’’ would be
keep an updated binder or record of                      response (or nonresponse). This step is                 responsible. For example, one employee
these documents, including information                   extremely important if the practice                     could be responsible for preparing
relating to compliance activities. The                   intends to rely on that response to guide               written standards and procedures, while
primary compliance documents that a                      it in future decisions, actions, or claim               another could be responsible for
practice would want to retain are those                  reimbursement requests or appeals.                      conducting or arranging for periodic
that relate to educational activities,                      In short, it is in the best interest of all          audits and ensuring that billing
internal investigations and internal                     physician practices, regardless of size,                questions are answered. Therefore, the
audit results. We suggest that particular                to have procedures to create and retain                 compliance-related responsibilities of
attention should be paid to                              appropriate documentation. The                          the designated person or persons may be
                                                         following record retention guidelines                   only a portion of his or her duties.
   31 All physician contracts and agreements with
                                                         are suggested:                                             Another possibility is that one
parties in a position to influence Federal health care
program business or to whom the doctor is in such           • The length of time that a practice’s               individual could serve as compliance
a position to influence should be reviewed to avoid      records are to be retained can be                       officer for more than one entity. In
violation of the anti-kickback, self-referral, and       specified in the physician practice’s                   situations where staffing limitations
other relevant Federal and State laws. The OIG has                                                               mandate that the practice cannot afford
published safe harbors that define practices not
                                                         standards and procedures (Federal and
subject to the anti-kickback statute, because such       State statutes should be consulted for                  to designate a person(s) to oversee
arrangements would be unlikely to result in fraud        specific time frames, if applicable);                   compliance activities, the practice could
or abuse. Failure to comply with a safe harbor              • Medical records (if in the                         outsource all or part of the functions of
provision does not make an arrangement per se                                                                    a compliance officer to a third party,
illegal. Rather, the safe harbors set forth specific     possession of the physician practice)
conditions that, if fully met, would assure the          need to be secured against loss,                        such as a consultant, PPMC, MSO, IPA
entities involved of not being prosecuted or             destruction, unauthorized access,                       or third-party billing company.
sanctioned for the arrangement qualifying for the        unauthorized reproduction, corruption,                  However, if this role is outsourced, it is
safe harbor. One such safe harbor applies to                                                                     beneficial for the compliance officer to
personal services contracts. See 42 CFR                  or damage; and
1001.952(d).
                                                                                                                 have sufficient interaction with the
   32 See OIG Special Fraud Alert ‘‘Joint Venture           34 There are various Federal regulations governing   physician practice to be able to
Arrangements’’ (August 1989) available on the OIG        the privacy of patient records and the retention of     effectively understand the inner
web site at http://www.hhs.gov/oig. See also OIG         certain types of patient records. Many states also      workings of the practice. For example,
Advisory Opinion 97–5.                                   have record retention statutes. Practices should        consultants that are not in close
   33 Physician practices should establish clear         check with their state medical society and/or
standards and procedures governing gift-giving           affiliated professional association for assistance in
                                                                                                                 geographic proximity to a practice may
because such exchanges may be viewed as                  ascertaining these requirements for their particular    not be effective compliance officers for
inducements to influence business decisions.             specialty and location.                                 the practice.
59442                         Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

   One suggestion for how to maintain                        • Investigating any report or                       employee in the operation of the
continual interaction is for the practice                 allegation concerning possible unethical               compliance program.
to designate someone to serve as a                        or improper business practices, and                       There are two goals a practice should
liaison with the outsourced compliance                    monitoring subsequent corrective action                strive for when conducting compliance
officer. This would help ensure a strong                  and/or compliance.                                     training: (1) All employees will receive
tie between the compliance officer and                       Each physician practice needs to                    training on how to perform their jobs in
the practice’s daily operations.                          assess its own practice situation and                  compliance with the standards of the
Outsourced compliance officers, who                       determine what best suits that practice                practice and any applicable regulations;
spend most of their time offsite, have                    in terms of compliance oversight.                      and (2) each employee will understand
certain limitations that a physician                                                                             that compliance is a condition of
                                                          Step Four: Conducting Appropriate
practice should consider before making                                                                           continued employment. Compliance
                                                          Training and Education
such a critical decision. These                                                                                  training focuses on explaining why the
limitations can include lack of                             Education is an important part of any                practice is developing and establishing
understanding as to the inner workings                    compliance program and is the logical                  a compliance program. The training
of the practice, accessibility and                        next step after problems have been                     should emphasize that following the
possible conflicts of interest when one                   identified and the practice has                        standards and procedures will not get a
compliance officer is serving several                     designated a person to oversee                         practice employee in trouble, but
practices.                                                educational training. Ideally, education               violating the standards and procedures
   If the physician practice decides to                   programs will be tailored to the                       may subject the employee to
designate a particular person(s) to                       physician practice’s needs, specialty                  disciplinary measures. It is advisable
oversee all compliance activities, not                    and size and will include both                         that new employees be trained on the
just those in conjunction with the audit-                 compliance and specific training.                      compliance program as soon as possible
related issue, the following is a list of                   There are three basic steps for setting              after their start date and employees
suggested duties that the practice may                    up educational objectives:                             should receive refresher training on an
want to assign to that person(s):                           • Determining who needs training                     annual basis or as appropriate.
   • Overseeing and monitoring the                        (both in coding and billing and in
                                                          compliance);                                           2. Coding and Billing Training
implementation of the compliance
program;                                                    • Determining the type of training                      Coding and billing training on the
   • Establishing methods, such as                        that best suits the practice’s needs (e.g.,            Federal health care program
periodic audits, to improve the                           seminars, in-service training, self-study              requirements may be necessary for
practice’s efficiency and quality of                      or other programs); and                                certain members of the physician
services, and to reduce the practice’s                      • Determining when and how often                     practice staff depending on their
vulnerability to fraud and abuse;                         education is needed and how much                       respective responsibilities. The OIG
   • Periodically revising the                            each person should receive.                            understands that most physician
compliance program in light of changes                      Training may be accomplished                         practices do not employ a professional
in the needs of the practice or changes                   through a variety of means, including                  coder and that the physician is often
in the law and in the standards and                       in-person training sessions (i.e., either              primarily responsible for all coding and
procedures of Government and private                      on site or at outside seminars),                       billing. However, it is in the practice’s
payor health plans;                                       distribution of newsletters,36 or even a               best interest to ensure that individuals
   • Developing, coordinating and                         readily accessible office bulletin board.              who are directly involved with billing,
participating in a training program that                  Regardless of the training modality                    coding or other aspects of the Federal
focuses on the components of the                          used, a physician practice should                      health care programs receive extensive
compliance program, and seeks to                          ensure that the necessary education is                 education specific to that individual’s
ensure that training materials are                        communicated effectively and that the                  responsibilities. Some examples of
appropriate;                                              practice’s employees come away from                    items that could be covered in coding
   • Ensuring that the HHS–OIG’s List of                  the training with a better understanding               and billing training include:
Excluded Individuals and Entities, and                    of the issues covered.                                    • Coding requirements;
the General Services Administration’s                                                                               • Claim development and submission
                                                          1. Compliance Training                                 processes;
(GSA’s) List of Parties Debarred from
Federal Programs have been checked                          Under the direction of the designated                   • Signing a form for a physician
with respect to all employees, medical                    compliance officer/contact, both initial               without the physician’s authorization;
staff and independent contractors; 35                     and recurrent training in compliance is                   • Proper documentation of services
and                                                       advisable, both with respect to the                    rendered;
                                                          compliance program itself and                             • Proper billing standards and
  35 The HHS–OIG ‘‘List of Excluded Individuals/          applicable statutes and regulations.                   procedures and submission of accurate
Entities’’ provides information to health care            Suggestions for items to include in                    bills for services or items rendered to
providers, patients, and others regarding                                                                        Federal health care program
individuals and entities that are excluded from
                                                          compliance training are: The operation
                                                          and importance of the compliance                       beneficiaries; and
participation in Federal health care programs. This
report, in both an on-line searchable and                 program; the consequences of violating                    • The legal sanctions for submitting
downloadable database, can be located on the              the standards and procedures set forth                 deliberately false or reckless billings.
Internet at http://www.hhs.gov/oig. The OIG
sanction information is readily available to users in
                                                          in the program; and the role of each                   3. Format of the Training Program
two formats on over 15,000 individuals and entities                                                                 Training may be conducted either in-
currently excluded from program participation             addition, the General Services Administration
through action taken by the OIG. The on-line              maintains a monthly listing of debarred contractors,   house or by an outside source.37
searchable database allows users to obtain                ‘‘List of Parties Debarred from Federal Programs,’’
information regarding excluded individuals and            at http://www.arnet.gov/epls.                             37 As noted earlier in this guidance, another way

entities sorted by: (1) The legal bases for exclusions;      36 HCFA also offers free online training for        for physician practices to receive training is for the
(2) the types of individuals and entities excluded        general fraud and abuse issues at http://              physicians and/or the employees of the practice to
by the OIG; and (3) the States where excluded             www.hcfa.gov/medlearn. See Appendix F for              attend training programs offered by outside entities,
individuals reside or entities do business. In            additional information.                                such as a hospital, a local medical society or a
                            Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                             59443

Training at outside seminars, instead of               coding employees will be trained as                      the carriers and insurers challenging the
internal programs and in-service                       soon as possible after assuming their                    medical necessity or validity of claims;
sessions, may be an effective way to                   duties and will work under an                            illogical patterns or unusual changes in
achieve the practice’s training goals. In              experienced employee until their                         the pattern of CPT–4, HCPCS or ICD–9
fact, many community colleges offer                    training has been completed.                             code utilization; and high volumes of
certificate or associate degree programs                                                                        unusual charge or payment adjustment
                                                       Step Five: Responding To Detected
in billing and coding, and professional                                                                         transactions. If any of these warning
                                                       Offenses and Developing Corrective
associations provide various kinds of                                                                           indicators become apparent, then it is
                                                       Action Initiatives
continuing education and certification                                                                          recommended that the practice follow
programs. Many carriers also offer                       When a practice determines it has                      up on the issues. Subsequently, as
billing training.                                      detected a possible violation, the next                  appropriate, the compliance procedures
   The physician practice may work                     step is to develop a corrective action                   of the practice may need to be changed
with its third-party billing company, if               plan and determine how to respond to                     to prevent the problem from recurring.
one is used, to ensure that                            the problem. Violations of a physician                      For potential criminal violations, a
documentation is of a level that is                    practice’s compliance program,                           physician practice would be well
adequate for the billing company to                    significant failures to comply with                      advised in its compliance program
submit accurate claims on behalf of the                applicable Federal or State law, and                     procedures to include steps for prompt
physician practice. If it is not, these                other types of misconduct threaten a                     referral or disclosure to an appropriate
problem areas should also be covered in                practice’s status as a reliable, honest,                 Government authority or law
the training. In addition to the billing               and trustworthy provider of health care.                 enforcement agency. In regard to
training, it is advisable for physician                Consequently, upon receipt of reports or                 overpayment issues, it is advised that
practices to maintain updated ICD–9,                   reasonable indications of suspected                      the physician practice take appropriate
HCPCS and CPT manuals (in addition to                  noncompliance, it is important that the                  corrective action, including prompt
the carrier bulletins construing those                 compliance contact or other practice                     identification and repayment of any
sources) and make them available to all                employee look into the allegations to                    overpayment to the affected payor.
employees involved in the billing                      determine whether a significant                             It is also recommended that the
process. Physician practices can also                  violation of applicable law or the                       compliance program provide for a full
provide a source of continuous updates                 requirements of the compliance program                   internal assessment of all reports of
on current billing standards and                       has indeed occurred, and, if so, take                    detected violations. If the physician
procedures by making publications or                   decisive steps to correct the problem.40                 practice ignores reports of possible
Government documents that describe                     As appropriate, such steps may involve                   fraudulent activity, it is undermining
current billing policies available to its              a corrective action plan,41 the return of                the very purpose it hoped to achieve by
employees.38                                           any overpayments, a report to the                        implementing a compliance program.
   Physician practices do not have to                  Government,42 and/or a referral to law                      It is advised that the compliance
provide separate education and training                enforcement authorities.                                 program standards and procedures
programs for the compliance and coding                   One suggestion is that the practice, in                include provisions to ensure that a
and billing training. All in-service                   developing its compliance program,                       violation is not compounded once
training and continuing education can                  develop its own set of monitors and                      discovered. In instances involving
integrate compliance issues, as well as                warning indicators. These might                          individual misconduct, the standards
other core values adopted by the                       include: Significant changes in the                      and procedures might also advise as to
practice, such as quality improvement                  number and/or types of claim rejections                  whether the individuals involved in the
and improved patient service, into their               and/or reductions; correspondence from                   violation either be retrained,
curriculum.                                                                                                     disciplined, or, if appropriate,
                                                       training may be necessary for specialty fields such      terminated. The physician practice may
4. Continuing Education on Compliance                  as claims development and billing.
                                                                                                                also prevent the compounding of the
                                                          40 Instances of noncompliance must be
Issues                                                                                                          violation by conducting a review of all
                                                       determined on a case-by-case basis. The existence
   There is no set formula for                         or amount of a monetary loss to a health care            confirmed violations, and, if
determining how often training sessions                program is not solely determinative of whether the       appropriate, self-reporting the violations
                                                       conduct should be investigated and reported to           to the applicable authority.
should occur. The OIG recommends that                  governmental authorities. In fact, there may be
there be at least an annual training                   instances where there is no readily identifiable            The physician practice may consider
program for all individuals involved in                monetary loss to a health care provider, but             the fact that if a violation occurred and
the coding and billing aspects of the                  corrective actions are still necessary to protect the    was not detected, its compliance
                                                       integrity of the applicable program and its              program may require modification.
practice.39 Ideally, new billing and                   beneficiaries, e.g., where services required by a plan
                                                       of care are not provided.                                Physician practices that detect
carrier. This sort of collaborative effort is an          41 The physician practice may seek advice from        violations could analyze the situation to
excellent way for the practice to meet the desired     its legal counsel to determine the extent of the         determine whether a flaw in their
training objective without having to expend the        practice’s liability and to plan the appropriate
resources to develop and implement in-house
                                                                                                                compliance program failed to anticipate
                                                       course of action.
training.                                                 42 The OIG has established a Provider Self-
                                                                                                                the detected problem, or whether the
   38 Some publications, such as OIG’s Special Fraud
                                                       Disclosure Protocol that encourages providers to         compliance program’s procedures failed
Alerts, audit and inspection reports, and Advisory     voluntarily report suspected fraud. The concept of       to prevent the violation. In any event, it
Opinions are readily available from the OIG and can    voluntary self-disclosure is premised on a               is prudent, even absent the detection of
provide a basis for educational courses and            recognition that the Government alone cannot
programs for physician practice employees. See         protect the integrity of the Medicare and other
                                                                                                                any violations, for physician practices to
Appendix F for a partial listing of these documents.   Federal health care programs. Health care providers      periodically review and modify their
See Footnote 3 for information on how to obtain        must be willing to police themselves, correct            compliance programs.
copies of these documents.                             underlying problems, and work with the
   39 Currently, the OIG is monitoring a significant   Government to resolve these matters. The Provider        Step Six: Developing Open Lines of
number of corporate integrity agreements that          Self-Disclosure Protocol can be located on the OIG’s     Communication
require many of these training elements. The OIG       web site at: www.hhs.gov/oig. See Appendix D for
usually requires a minimum of one hour annually        further information on the Provider Self-Disclosure        In order to prevent problems from
for basic training in compliance areas. Additional     Protocol.                                                occurring and to have a frank discussion
59444                   Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

of why the problem happened in the             practice and the billing company,            to discipline. Disciplinary actions could
first place, physician practices need to       respectively. Communication can              include: Warnings (oral); reprimands
have open lines of communication.              include, as appropriate, lists of reported   (written); probation; demotion;
Especially in a smaller practice, an open      or identified concerns, initiation and the   temporary suspension; termination;
line of communication is an integral           results of internal assessments, training    restitution of damages; and referral for
part of implementing a compliance              needs, regulatory changes, and other         criminal prosecution. Inclusion of
program. Guidance previously issued by         operational and compliance matters;          disciplinary guidelines in in-house
the OIG has encouraged the use of                 • The utilization of a process that       training and procedure manuals is
several forms of communication                 maintains the anonymity of the persons       sufficient to meet the ‘‘well publicized’’
between the compliance officer/                involved in the reported possible            standard of this element.
committee and provider personnel,              erroneous or fraudulent conduct and the         It is suggested that any
many of which focus on formal                  person reporting the concern; and            communication resulting in the finding
processes and are more costly to                  • Provisions in the standards and         of non-compliant conduct be
implement (e.g., hotlines and e-mail).         procedures that there will be no             documented in the compliance files by
However, the OIG recognizes that the           retribution for reporting conduct that a     including the date of incident, name of
nature of some physician practices is          reasonable person acting in good faith       the reporting party, name of the person
not as conducive to implementing these         would have believed to be erroneous or       responsible for taking action, and the
types of measures. The nature of a small       fraudulent.                                  follow-up action taken. Another
physician practice dictates that such             The OIG recognizes that protecting        suggestion is for physician practices to
communication and information                  anonymity may not be feasible for small      conduct checks to make sure all current
exchanges need to be conducted                 physician practices. However, the OIG        and potential practice employees are not
through a less formalized process than         believes all practice employees, when        listed on the OIG or GSA lists of
that which has been envisioned by prior        seeking answers to questions or              individuals excluded from participation
OIG guidance.                                  reporting potential instances of             in Federal health care or Government
   In the small physician practice             erroneous or fraudulent conduct, should      procurement programs.44
setting, the communication element             know to whom to turn for assistance in
may be met by implementing a clear             these matters and should be able to do       C. Assessing A Voluntary Compliance
‘‘open door’’ policy between the               so without fear of retribution. While the    Program
physicians and compliance personnel            physician practice may strive to                A practice’s commitment to
and practice employees. This policy can        maintain the anonymity of an                 compliance can best be assessed by the
be implemented in conjunction with             employee’s identity, it also needs to        active application of compliance
less formal communication techniques,          make clear that there may be a point at      principles in the day-to-day operations
such as conspicuous notices posted in          which the individual’s identity may          of the practice. Compliance programs
common areas and/or the development            become known or may have to be               are not just written standards and
and placement of a compliance bulletin         revealed in certain instances.               procedures that sit on a shelf in the
board where everyone in the practice           Step Seven: Enforcing Disciplinary           main office of a practice, but are an
can receive up-to-date compliance              Standards Through Well-Publicized            everyday part of the practice operations.
information.43                                 Guidelines                                   It is by integrating the compliance
   A compliance program’s system for                                                        program into the practice culture that
meaningful and open communication                 Finally, the last step that a physician   the practice can best achieve maximum
can include the following:                     practice may wish to take is to              benefit from its compliance program.
   • The requirement that employees            incorporate measures into its practice to
report conduct that a reasonable person        ensure that practice employees               III. Conclusion
would, in good faith, believe to be            understand the consequences if they             Just as immunizations are given to
erroneous or fraudulent;                       behave in a non-compliant manner. An         patients to prevent them from becoming
   • The creation of a user-friendly           effective physician practice compliance      ill, physician practices may view the
process (such as an anonymous drop             program includes procedures for              implementation of a voluntary
box for larger practices) for effectively      enforcing and disciplining individuals       compliance program as comparable to a
reporting erroneous or fraudulent              who violate the practice’s compliance or     form of preventive medicine for the
conduct;                                       other practice standards. Enforcement        practice. This voluntary compliance
   • Provisions in the standards and           and disciplinary provisions are              program guidance is intended to assist
procedures that state that a failure to        necessary to add credibility and             physician practices in developing and
report erroneous or fraudulent conduct         integrity to a compliance program.           implementing internal controls and
is a violation of the compliance                  The OIG recommends that a physician       procedures that promote adherence to
program;                                       practice’s enforcement and disciplinary      Federal health care program
   • The development of a simple and           mechanisms ensure that violations of         requirements.
readily accessible procedure to process        the practice’s compliance policies will         As stated earlier, physician
reports of erroneous or fraudulent             result in consistent and appropriate         compliance programs do not need to be
conduct;                                       sanctions, including the possibility of      time or resource intensive and can be
   • If a billing company is used,             termination, against the offending           developed in a manner that best reflects
communication to and from the billing          individual. At the same time, it is          the nature of each individual practice.
company’s compliance officer/contact           advisable that the practice’s                Many of the recommendations set forth
and other responsible staff to coordinate      enforcement and disciplinary                 in this document are ones that many
billing and compliance activities of the       procedures be flexible enough to             physician practices already have in
                                               account for mitigating or aggravating        place and are simply good business
  43 In addition to whatever other method of
                                               circumstances. The procedures might          practices that can be adhered to with a
communication is being utilized, the OIG
recommends that physician practices post the
                                               also stipulate that individuals who fail
HHS–OIG Hotline telephone number (1–800–HHS–   to detect or report violations of the          44 See Footnote 35 for information on how to

TIPS) in a prominent area.                     compliance program may also be subject       access these lists.
                            Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                               59445

reasonable amount of effort. By                       B. Advance Beneficiary Notices                         C. Physician Liability for Certifications in the
implementing an effective compliance                     Physicians are required to provide ABNs             Provision of Medical Equipment and
program, appropriate for its size and                 before they provide services that they know            Supplies and Home Health Services
resources, and making compliance                      or believe Medicare does not consider                     In January 1999, the OIG issued a Special
principles an active part of the practice             reasonable and necessary. (The one exception           Fraud Alert on this topic, which is available
culture, a physician practice can help                to this requirement is for services that are           on the OIG web site at www.hhs.gov/oig/
prevent and reduce erroneous or                       performed pursuant to EMTALA                           frdalrt/index.htm. The following is a
fraudulent conduct in its practice. These             requirements as described in section II.A). A          summary of the Special Fraud Alert.
efforts can also streamline and improve               properly executed ABN acknowledges that                   The OIG issued the Special Fraud Alert to
                                                      coverage is uncertain or yet to be determined,         reiterate to physicians the legal and
the business operations within the
                                                      and stipulates that the patient promises to            programmatic significance of physician
practice and therefore innoculate itself              pay the bill if Medicare does not. Patients            certifications made in connection with the
against future problems.                              who are not notified before they receive such          ordering of certain items and services for
  Dated: September 27, 2000.                          services are not responsible for payment. The          Medicare patients. In light of information
June Gibbs Brown,                                     ABN must be sufficient to put the patient on           obtained through OIG provider audits, the
                                                      notice of the reasons why the physician                OIG deemed it necessary to remind
Inspector General.
                                                      believes that the payment may be denied.               physicians that they may be subject to
Appendix A: Additional Risk Areas                     The objective is to give the patient sufficient        criminal, civil and administrative penalties
                                                      information to allow an informed choice as             for signing a certification when they know
  Appendix A describes additional risk areas          to whether to pay for the service.                     that the information is false or for signing a
that a physician practice may wish to address            Accordingly, each ABN should:                       certification with reckless disregard as to the
during the development of its compliance                                                                     truth of the information. (See Appendix B
                                                      I. Be in writing;
program. If any of the following risk areas are                                                              and Appendix C for more detailed
                                                      II. Identify the specific service that may be
applicable to the practice, the practice may                                                                 information on the applicable statutes).
                                                         denied (procedure name and CPT/HCPC
want to consider addressing the risk areas by                                                                   Medicare has conditioned payment for
                                                         code is recommended);
incorporating them into the practice’s written                                                               many items and services on a certification
                                                      III. State the specific reason why the
standards and procedures manual and                                                                          signed by a physician attesting that the
                                                         physician believes that service may be
addressing them in its training program.                 denied; and                                         physician has reviewed the patient’s
I. Reasonable and Necessary Services                  IV. Be signed by the patient acknowledging             condition and has determined that an item or
                                                         that the required information was provided          service is reasonable and necessary. Because
A. Local Medical Review Policy                           and that the patient assumes responsibility         Medicare primarily relies on the professional
   An area of concern for physicians relating            to pay for the service.                             judgment of the treating physician to
to determinations of reasonable and                      The Medicare Carrier’s Manual 2 provides            determine the reasonable and necessary
necessary services is the variation in local          that an ABN will not be acceptable if: (1) The         nature of a given service or supply, it is
medical review policies (LMRPs) among                 patient is asked to sign a blank ABN form;             important that physicians provide complete
carriers. Physicians are supposed to bill the         or (2) the ABN is used routinely without               and accurate information on any
Federal health care programs only for items           regard to a particularized need. The routine           certifications they sign. Physician
and services that are reasonable and                  use of ABNs is generally prohibited because            certification is obtained through a variety of
necessary. However, in order to determine             the ABN must state the specific reason the             forms, including prescriptions, orders, and
whether an item or service is reasonable and          physician anticipates that the specific service        Certificates of Medical Necessity (CMNs).
necessary under Medicare guidelines, the              will not be covered.                                   Two areas where physician certification as to
physician must apply the appropriate                     A common risk area associated with ABNs             whether an item or service is reasonable and
LMRP.1                                                is in regard to diagnostic tests or services.          necessary is essential and which are
   With the exception of claims that are              There are three steps that a physician                 vulnerable to abuse are: (1) Home health
properly coded and submitted to Medicare              practice can take to help ensure it is in              services; and (2) durable medical equipment.
solely for the purpose of obtaining a written         compliance with the regulations concerning                By signing a CMN, the physician
denial, physician practices are to bill the           ABNs for diagnostic tests or services:                 represents that:
Federal health programs only for items and            1. Determine which tests are not covered               1. He or she is the patient’s treating physician
services that are covered. In order to                   under national coverage rules;                         and that the information regarding the
determine if an item or service is covered for        2. Determine which tests are not covered                  physician’s address and unique physician
Medicare, a physician practice must be                   under local coverage rules such as LMRPs               identification number (UPIN) is correct;
knowledgeable of the LMRPs applicable to its             (contact the practice’s carrier to see if a         2. the entire CMN, including the sections
practice’s jurisdiction. The practice may                listing has been assembled); and                       filled out by the supplier, was completed
contact its carrier to request a copy of the          3. Determine which tests are only covered for             prior to the physician’s signature; and
pertinent LMRPs, and once the practice                   certain diagnoses.                                  3. the information in section B relating to
receives the copies, they can be incorporated            The OIG is aware that the use of ABNs is               whether the item or service is reasonable
into the practice’s written standards and             an area where physician practices experience              and necessary is true, accurate, and
procedures manual. When the LMRP                      numerous difficulties. Practices can help to
                                                                                                                complete to the best of the physician’s
indicates that an item or service may not be          reduce problems in this area by educating
                                                                                                                knowledge.
covered by Medicare, the physician practice           their physicians and office staff on the
is responsible to convey this information to          correct use of ABNs, obtaining guidance from              Activities such as signing blank CMNs,
the patient so that the patient can make an           the carrier regarding their interpretation of          signing a CMN without seeing the patient to
informed decision concerning the health care          whether an ABN is necessary where the                  verify the item or service is reasonable and
services he/she may want to receive.                  service is not covered, developing a standard          necessary, and signing a CMN for a service
Physician practices convey this information           form for all diagnostic tests (most carriers           that the physician knows is not reasonable
through Advance Beneficiary Notices                   have a developed model), and developing a              and necessary are activities that can lead to
(ABNs).                                               process for handling patients who refuse to            criminal, civil and administrative penalties.
                                                      sign ABNs.                                                Ultimately, it is advised that physicians
  1 HCFA has recently developed a web site which,
                                                                                                             carefully review any form of certification
when completed by the end of the year 2000, will        2 The relevant manual provisions are located at      (order, prescription or CMN) before signing it
contain the LMRPs for each of the contractors         MCM, Part III, §§ 7300 and 7320. This section of the   to verify that the information contained in
across the country. The web site can be accessed at   manual also includes the carrier’s recommended         the certification is both complete and
http://www.lmrp.net.                                  form of an ABN.                                        accurate.
59446                        Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

D. Billing for Non-covered Services as if         after having been informed of the risks and           services are furnished by a resident in the
Covered                                           benefits.5                                            presence of a teaching physician.8
   In some instances, we are aware that              If an individual’s emergency medical                  Unless a service falls under a specified
physician practices submit claims for             condition has not been stabilized, the                exception, such as the Primary Care
                                                  statute’s third requirement is activated. A           Exception,9 the teaching physician must be
services in order to receive a denial from the
                                                  hospital may not transfer an individual with          present during the key portion of any service
carrier, thereby enabling the patient to
                                                  an unstable emergency medical condition               or procedure for which payment is sought.10
submit the denied claim for payment to a
                                                  unless: (1) The individual or his or her              Physicians should ensure the following with
secondary payer.                                                                                        respect to services provided in the teaching
   A common question relating to this risk        representative makes a written request for
                                                  transfer to another medical facility after being      physician setting 11
area is: If the medical services provided are                                                              • Only services actually provided are
not covered under Medicare, but the               informed of the risk of transfer and the
                                                  transferring hospital’s obligation under the          billed;
secondary or supplemental insurer requires a                                                               • Every physician who provides or
Medicare rejection in order to cover the          statute to provide additional examination or
                                                  treatment; (2) a physician has signed a               supervises the provision of services to a
services, then would the original submission                                                            patient is responsible for the correct
of the claim to Medicare be considered            certification summarizing the medical risks
                                                                                                        documentation of the services that were
fraudulent? Under the applicable regulations,     and benefits of a transfer and certifying that,
                                                                                                        rendered;
                                                  based upon the information available at the
the OIG would not consider such                                                                            • Every physician is responsible for
submissions to be fraudulent. For example,        time of transfer, the medical benefits
                                                                                                        assuring that in cases where the physician
the denial may be necessary to establish          reasonably expected from the transfer
                                                                                                        provides evaluation and management (E&M)
patient liability protections as stated in        outweigh the increased risks; or (3) if a             services, a patient’s medical record includes
section 1879 of the Social Security Act (the      physician is not physically present when the          appropriate documentation of the applicable
Act) (codified at 42 U.S.C. 1395pp). As           transfer decision is made, a qualified medical        key components of the E&M services
stated, Medicare denials may also be required     person signs the certification after the              provided or supervised by the physician (e.g.,
so that the patient can seek payment from a       physician, in consultation with the qualified         patient history, physician examination, and
secondary insurer. In instances where a claim     medical person, has made the determination            medical decision making), as well as
is being submitted to Medicare for this           that the benefits of transfer outweigh the            documentation to adequately reflect the
purpose, the physician should indicate on         increased risks. The physician must later             procedure or portion of the services provided
the claim submission that the claim is being      countersign the certification.6                       by the physician; and
submitted for the purpose of receiving a             Physician and/or hospital misconduct may              • Unless specifically excepted by
denial, in order to bill a secondary insurance    result in violations of the statute.7 One area        regulation, every physician must document
carrier. This step should assist carriers and     of particular concern is physician on-call            his or her presence during the key portion of
prevent inadvertent payments to which the         responsibilities. Physician practices whose           any service or procedure for which payment
                                                  members serve as on-call emergency room               is sought.
physician is not entitled.
                                                  physicians with hospitals are advised to
   In some instances, however, the carrier                                                              C. Gainsharing Arrangements and Civil
                                                  familiarize themselves with the hospital’s
pays the claim even though the service is                                                               Monetary Penalties for Hospital Payments to
                                                  policies regarding on-call physicians. This
non-covered, and even though the physician                                                              Physicians to Reduce or Limit Services to
                                                  can be done by reviewing the medical staff
did not intend for payment to be made. When                                                             Beneficiaries
                                                  bylaws or policies and procedures of the
this occurs, the physician has a responsibility
                                                  hospital that must define the responsibility of          In July 1999, the OIG issued a Special
to refund the amount paid and indicate that
                                                  on-call physicians to respond to, examine,            Fraud Alert on this topic, which is available
the service is not covered.
                                                  and treat patients with emergency medical             on the OIG web site at www.hhs.gov/oig/
II. Physician Relationships with Hospitals        conditions. Physicians should also be aware           frdalrt/index.htm. The following is a
                                                  of the requirement that, when medically               summary of the Special Fraud Alert.
A. The Physician Role in EMTALA                   indicated, on-call physicians must generally             The term ‘‘gainsharing’’ typically refers to
   The Emergency Medical Treatment and            come to the hospital to examine the patient.          an arrangement in which a hospital gives a
Active Labor Act (EMTALA), 42 U.S.C.              The exception to this requirement is that a           physician a percentage share of any
1395dd, is an area that has been receiving        patient may be sent to see the on-call                reduction in the hospital’s costs for patient
increasing scrutiny. The statute is intended      physician at a hospital-owned contiguous or           care attributable in part to the physician’s
to ensure that all patients who come to the       on-campus facility to conduct or complete             efforts. The civil monetary penalty (CMP)
emergency department of a hospital receive        the medical screening examination as long             that applies to gainsharing arrangements is
care, regardless of their insurance or ability    as:                                                   set forth in 42 U.S.C. 1320a–7a(b)(1). This
to pay. Both hospitals and physicians need        1. All persons with the same medical                  section prohibits any hospital or critical
to work together to ensure compliance with           condition are moved to this location;              access hospital from knowingly making a
the provisions of this law.                       2. there is a bona fide medical reason to move        payment directly or indirectly to a physician
   The statute imposes three fundamental             the patient; and                                   as an inducement to reduce or limit services
requirements upon hospitals that participate      3. qualified medical personnel accompany              to Medicare or Medicaid beneficiaries under
in the Medicare program with regard to               the patient.                                       a physician’s care.
patients requesting emergency care. First, the                                                             It is the OIG’s position that the Civil
                                                  B. Teaching Physicians                                Monetary Penalties Law clearly prohibits any
hospital must conduct an appropriate
medical screening examination to determine          Special regulations apply to teaching               gainsharing arrangements that involve
if an emergency medical condition exists.3        physicians’ billings. Regulations provide that        payments by, or on behalf of, a hospital to
Second, if the hospital determines that an        services provided by teaching physicians in           physicians with clinical care responsibilities
emergency medical condition exists, it must       teaching settings are generally payable under         to induce a reduction or limitation of services
either provide the treatment necessary to         the physician fee schedule only if the                to Medicare or Medicaid beneficiaries.
stabilize the emergency medical condition or      services are personally furnished by a                However, hospitals and physicians are not
comply with the statute’s requirements to         physician who is not a resident or the                prohibited from working together to reduce
effect a proper transfer of a patient whose                                                             unnecessary hospital costs through other
condition has not been stabilized.4 A hospital      5 See 42 U.S.C. 1395dd(b)(2) and (3).
                                                                                                          8 42  CFR 415.150 through 415.190.
is considered to have met this second               6 See 42 U.S.C. 1395dd(c)(1)(A).
                                                                                                          9 42  CFR 415.174.
requirement if an individual refuses the            7 Hospitals and physicians, including on-call
                                                                                                           10 Id.
hospital’s offer of additional examination or     physicians, who violate the statute may face
treatment, or refuses to consent to a transfer,   penalties that include civil fines of up to $50,000      11 This section is not intended to be and is not

                                                  (or not more than $25,000 in the case of a hospital   a complete reference for teaching physicians. It is
                                                  with less than 100 beds) per violation, and           strongly recommended that those physicians who
 3 See   42 U.S.C. 1395dd(a).                     physicians may be excluded from participation in      practice in a teaching setting consult their
 4 See   42 U.S.C. 1395dd(b)(1).                  the Federal health care programs.                     respective hospitals for more guidance.
                           Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                            59447

arrangements. For example, hospitals and             beneficiary’s claim. A billing service that           Specifically, 42 U.S.C. 1395u(l)(A)(iii)
physicians may enter into personal services          contracts on a percentage basis does not            mandates that a nonparticipating physician
contracts where hospitals pay physicians             qualify as a party that furnished services to       must refund payments received from a
based on a fixed fee at fair market value for        a beneficiary, thus a billing service cannot        Medicare beneficiary if it is later determined
services rendered to reduce costs rather than        directly receive payment of Medicare funds.         by a Peer Review Organization or a Medicare
a fee based on a share of cost savings.              According to the Medicare Carriers Manual           carrier that the services were not reasonable
                                                     Section 3060(A), a payment is considered to         and necessary. Failure to comply with this
D. Physician Incentive Arrangements                  be made directly to the billing service if the      requirement may result in a fine of up to
   The OIG has identified potentially illegal        service can convert the payment to its own          $10,000 per violation or exclusion from
practices involving the offering of incentives       use and control without the payment first           participation in Federal health care programs
by entities in an effort to recruit and retain       passing through the control of the physician.       for up to 5 years.
physicians. The OIG is concerned that the            For example, the billing service should not
intent behind offering incentives to                 bill the claims under its own name or tax           C. Professional Courtesy
physicians may not be to recruit physicians,         identification number. The billing service             The term ‘‘professional courtesy’’ is used to
but instead the offer is intended as a kickback      should bill claims under the physician’s            describe a number of analytically different
to obtain and increase patient referrals from        name and tax identification number. Nor             practices. The traditional definition is the
physicians. These recruitment incentive              should a billing service receive the payment        practice by a physician of waiving all or a
arrangements are implicated by the Anti-             of Medicare funds directly into a bank              part of the fee for services provided to the
Kickback Statute because they can constitute         account over which the billing service              physician’s office staff, other physicians,
remuneration offered to induce, or in return         maintains sole control. The Medicare                and/or their families. In recent times,
for, the referral of business paid for by            payments should instead be deposited into a         ‘‘professional courtesy’’ has also come to
Medicare or Medicaid.                                bank account over which the provider has            mean the waiver of coinsurance obligations
   Some examples of questionable incentive           signature control.                                  or other out-of-pocket expenses for
arrangements are:                                      Physician practices should review the             physicians or their families (i.e., ‘‘insurance
   • Provision of free or significantly              third-party medical billing guidance for            only’’ billing), and similar payment
discounted billing, nursing, or other staff          additional information on third-party billing       arrangements by hospitals or other
services.                                            companies and the compliance risk areas             institutions for services provided to their
   • Payment of the cost of a physician’s            associated with billing companies.                  medical staffs or employees. While only the
travel and expenses for conferences.                                                                     first of these practices is truly ‘‘professional
   • Payment for a physician’s services that         B. Billing Practices by Non-Participating
                                                                                                         courtesy,’’ in the interests of clarity and
require few, if any, substantive duties by the       Physicians
                                                                                                         completeness, we will address all three.
physician.                                              Even though nonparticipating physicians             In general, whether a professional courtesy
   • Guarantees that if the physician’s income       do not accept payment directly from the             arrangement runs afoul of the fraud and
fails to reach a predetermined level, the            Medicare program, there are a number of             abuse laws is determined by two factors: (i)
entity will supplement the remainder up to           laws that apply to the billing of Medicare          How the recipients of the professional
a certain amount.                                    beneficiaries by non-participating physicians.      courtesy are selected; and (ii) how the
III. Physician Billing Practices                     Limiting Charges                                    professional courtesy is extended. If
                                                        42 U.S.C. 1395w–4(g) prohibits a                 recipients are selected in a manner that
A. Third-Party Billing Services                      nonparticipating physician from knowingly           directly or indirectly takes into account their
   Physicians should remember that they              and willfully billing or collecting on a            ability to affect past or future referrals, the
remain responsible to the Medicare program           repeated basis an actual charge for a service       anti-kickback statute—which prohibits giving
for bills sent in the physician’s name or            that is in excess of the Medicare limiting          anything of value to generate Federal health
containing the physician’s signature, even if        charge. For example, a nonparticipating             care program business—may be implicated. If
the physician had no actual knowledge of a           physician may not bill a Medicare                   the professional courtesy is extended through
billing impropriety. The attestation on the          beneficiary $50 for an office visit when the        a waiver of copayment obligations (i.e.,
HCFA 1500 form, i.e., the physician’s                Medicare limiting charge for the visit is $25.      ‘‘insurance only’’ billing), other statutes may
signature line, states that the physician’s          Additionally, there are numerous provisions         be implicated, including the prohibition of
services were billed properly. In other words,       that prohibit nonparticipating physicians           inducements to beneficiaries, section
it is no defense for the physician if the            from knowingly and willfully charging               1128A(a)(5) of the Act (codified at 42 U.S.C.
physician’s billing service improperly bills         patients in excess of the statutory charge          1320a–7a(a)(5)). Claims submitted as a result
Medicare.                                            limitations for certain specified procedures,       of either practice may also implicate the civil
   One of the most common risk areas                 such as cataract surgery, mammography               False Claims Act.
involving billing services deals with                screening and coronary artery bypass surgery.          The following are general observations
physician practices contracting with billing         Failure to comply with these sections can           about professional courtesy arrangements for
services on a percentage basis. Although             result in a fine of up to $10,000 per violation     physician practices to consider:
percentage based billing arrangements are not        or exclusion from participation in Federal             • A physician’s regular and consistent
illegal per se, the Office of Inspector General      health care programs for up to 5 years.             practice of extending professional courtesy
has a longstanding concern that such                                                                     by waiving the entire fee for services
                                                     Refund of Excess Charges                            rendered to a group of persons (including
arrangements may increase the risk of
intentional upcoding and similar abusive               42 U.S.C. 1395w–4(g) mandates that if a           employees, physicians, and/or their family
billing practices.12                                 nonparticipating physician collects an actual       members) may not implicate any of the OIG’s
   A physician may contract with a billing           charge for a service that is in excess of the       fraud and abuse authorities so long as
service on a percentage basis. However, the          limiting charge, the physician must refund          membership in the group receiving the
billing service cannot directly receive the          the amount collected above the limiting             courtesy is determined in a manner that does
payment of Medicare funds into a bank                charge to the individual within 30 days             not take into account directly or indirectly
account that it solely controls. Under 42            notice of the violation. For example, if a          any group member’s ability to refer to, or
U.S.C. 1395u(b)(6), Medicare payments can            physician collected $50 from a Medicare             otherwise generate Federal health care
only be made to either the beneficiary or a          beneficiary for an office visit, but the limiting   program business for, the physician.
party (such as a physician) that furnished the       charge for the visit was $25, the physician            • A physician’s regular and consistent
services and accepted assignment of the              must refund $25 to the beneficiary, which is        practice of extending professional courtesy
                                                     the difference between the amount collected         by waiving otherwise applicable copayments
  12 This concern is noted in Advisory Opinion No.   ($50) and the limiting charge ($25). Failure        for services rendered to a group of persons
98–4 and also the Office of Inspector General        to comply with this requirement may result          (including employees, physicians, and/or
Compliance Program Guidance for Third-Party          in a fine of up to $10,000 per violation or         their family members), would not implicate
Medical Billing Companies. Both are available on     exclusion from participation in Federal             the anti-kickback statute so long as
the OIG web site at http://www.hhs.gov/oig.          health care programs for up to 5 years.             membership in the group is determined in a
59448                    Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

manner that does not take into account             • The aggregate space rented does not            health care programs, but to most other types
directly or indirectly any group member’s        exceed that which is reasonably necessary to       of health care benefit programs as well.
ability to refer to, or otherwise generate       accomplish the commercially reasonable
Federal health care program business for, the    business purpose of the rental.                    Penalty for Unlawful Conduct
physician.                                                                                             The penalty may include the imposition of
  • Any waiver of copayment practice,            B. Unlawful Advertising
                                                                                                    a fine, imprisonment of up to 10 years, or
including that described in the preceding           42 U.S.C. 1320b–10 makes it unlawful for        both. If the value of the asset is $100 or less,
bullet, does implicate section 1128A(a)(5) of    any person to advertise using the names,           the penalty is a fine, imprisonment of up to
the Act if the patient for whom the              abbreviations, symbols, or emblems of the
copayment is waived is a Federal health care                                                        a year, or both.
                                                 Social Security Administration, Health Care
program beneficiary who is not financially       Financing Administration, Department of            Example
needy.                                           Health and Human Services, Medicare,
  The legality of particular professional                                                             An office manager for Dr. X knowingly
                                                 Medicaid or any combination or variation of
courtesy arrangements will turn on the                                                              embezzles money from the bank account for
                                                 such words, abbreviations, symbols or
specific facts presented, and, with respect to   emblems in a manner that such person               Dr. X’s practice. The bank account includes
the anti-kickback statute, on the specific       knows or should know would convey the              reimbursement received from the Medicare
intent of the parties. A physician practice      false impression that the advertised item is       program; thus, intentional embezzlement of
may wish to consult with an attorney if it is                                                       funds from this account is a violation of the
                                                 endorsed by the named entities. For instance,
uncertain about its professional courtesy                                                           law.
                                                 a physician may not place an ad in the
arrangements.
                                                 newspaper that reads ‘‘Dr. X is a cardiologist
                                                                                                    III. False Statements Relating to Health Care
IV. Other Risk Areas                             approved by both the Medicare and Medicaid
                                                                                                    Matters (18 U.S.C. 1035)
                                                 programs.’’ A violation of this section may
A. Rental of Space in Physician Offices by
                                                 result in a penalty of up to $5,000 ($25,000       Description of Unlawful Conduct
Persons or Entities to Which Physicians Refer
                                                 in the case of a broadcast or telecast) for each
  In February 2000, the OIG issued a Special                                                           It is a crime to knowingly and willfully
                                                 violation.
Fraud Alert on this topic, which is available                                                       falsify or conceal a material fact, or make any
on the OIG web site at www.hhs.gov/oig/          Appendix B: Criminal Statutes                      materially false statement or use any
frdalrt/index.htm. The following is a               This Appendix contains a description of         materially false writing or document in
summary of the Special Fraud Alert.              criminal statutes related to fraud and abuse       connection with the delivery of or payment
  Among various relationships between            in the context of health care. The Appendix        for health care benefits, items or services.
physicians and labs, hospitals, home health      is not intended to be a compilation of all         Note that this law applies not only to Federal
agencies, etc., the OIG has identified           Federal statutes related to health care fraud      health care programs, but to most other types
potentially illegal practices involving the      and abuse. It is merely a summary of some          of health care benefit programs as well.
rental of space in a physician’s office by       of the more frequently cited Federal statutes.
suppliers that provide items or services to                                                         Penalty for Unlawful Conduct
patients who are referred or sent to the         I. Health Care Fraud (18 U.S.C. 1347)
supplier by the physician-landlord. An                                                                 The penalty may include the imposition of
example of a suspect arrangement is the          Description of Unlawful Conduct                    a fine, imprisonment of up to 5 years, or
rental of physician office space by a durable      It is a crime to knowingly and willfully         both.
medical equipment (DME) supplier in a            execute (or attempt to execute) a scheme to
                                                                                                    Example
position to benefit from referrals of the        defraud any health care benefit program, or
physician’s patients. The OIG is concerned       to obtain money or property from a health            Dr. X certified on a claim form that he
that in such arrangements the rental             care benefit program through false                 performed laser surgery on a Medicare
payments may be disguised kickbacks to the       representations. Note that this law applies        beneficiary when he knew that the surgery
physician-landlord to induce referrals.          not only to Federal health care programs, but      was not actually performed on the patient.
Space Rental Safe Harbor to the Anti-            to most other types of health care benefit
                                                 programs as well.                                  IV. Obstruction of Criminal Investigations of
Kickback Statute
                                                                                                    Health Care Offenses (18 U.S.C. 1518)
  To avoid potentially violating the anti-       Penalty for Unlawful Conduct
kickback statute, the OIG recommends that                                                           Description of Unlawful Conduct
                                                    The penalty may include the imposition of
rental agreements comply with all of the         fines, imprisonment of up to 10 years, or            It is a crime to willfully prevent, obstruct,
following criteria for the space rental safe     both. If the violation results in serious bodily   mislead, delay or attempt to prevent,
harbor:                                          injury, the prison term may be increased to        obstruct, mislead, or delay the
  • The agreement is set out in writing and      a maximum of 20 years. If the violation
signed by the parties.                                                                              communication of records relating to a
                                                 results in death, the prison term may be           Federal health care offense to a criminal
  • The agreement covers all of the space        expanded to include any number of years, or
rented by the parties for the term of the                                                           investigator. Note that this law applies not
                                                 life imprisonment.                                 only to Federal health care programs, but to
agreement and specifies the space covered by
the agreement.                                   Examples                                           most other types of health care benefit
  • If the agreement is intended to provide        1. Dr. X, a chiropractor, intentionally billed   programs as well.
the lessee with access to the space for          Medicare for physical therapy and
periodic intervals of time rather than on a                                                         Penalty for Unlawful Conduct
                                                 chiropractic treatments that he never actually
full-time basis for the term of the rental       rendered for the purpose of fraudulently              The penalty may include the imposition of
agreement, the rental agreement specifies        obtaining Medicare payments.                       a fine, imprisonment of up to 5 years, or
exactly the schedule of such intervals, the        2. Dr. X, a psychiatrist, billed Medicare,       both.
precise length of each interval, and the exact   Medicaid, TRICARE, and private insurers for
rent for each interval.                                                                             Examples
                                                 psychiatric services that were provided by
  • The term of the rental agreement is for                                                            1. Dr. X instructs his employees to tell OIG
                                                 his nurses rather than himself.
not less than one year.                                                                             investigators that Dr. X personally performs
  • The aggregate rental charge is set in        II. Theft or Embezzlement in Connection
                                                                                                    all treatments when, in fact, medical
advance, is consistent with fair market value,   with Health Care (18 U.S.C. 669)
and is not determined in a manner that takes                                                        technicians do the majority of the treatment
into account the volume or value of any          Description of Unlawful Conduct                    and Dr. X is rarely present in the office.
referrals or business otherwise generated          It is a crime to knowingly and willfully            2. Dr. X was under investigation by the FBI
between the parties for which payment may        embezzle, steal or intentionally misapply any      for reported fraudulent billings. Dr. X altered
be made in whole or in part under Medicare       of the assets of a health care benefit program.    patient records in an attempt to cover up the
or a State health care program.                  Note that this law applies not only to Federal     improprieties.
                          Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                        59449

V. Mail and Wire Fraud (18 U.S.C. 1341 and           • for purchasing, leasing, ordering, or       or fraudulent claim for payment or approval.
1343)                                             arranging for any good, facility, service, or    Additionally, it prohibits knowingly making
                                                  item that is covered by a Federal health care    or using (or causing to be made or used) a
Description of Unlawful Conduct                   program.                                         false record or statement to get a false or
   It is a crime to use the mail, private            There are a number of limited exceptions      fraudulent claim paid or approved by the
courier, or wire service to conduct a scheme      to the law, also known as ‘‘safe harbors,’’      Federal Government or its agents, like a
to defraud another of money or property. The      which provide immunity from criminal             carrier, other claims processor, or State
term ‘‘wire services’’ includes the use of a      prosecution and which are described in           Medicaid program.
telephone, fax machine or computer. Each          greater detail in the statute and related
use of a mail or wire service to further          regulations (found at 42 CFR 1001.952 and        Definitions
fraudulent activities is considered a separate    www.hhs.gov/oig/ak). Current safe harbors           False Claim—A ‘‘false claim’’ is a claim for
crime. For instance, each fraudulent claim        include:                                         payment for services or supplies that were
that is submitted electronically to a carrier        • investment interests;                       not provided specifically as presented or for
would be considered a separate violation of          • space rental;                               which the provider is otherwise not entitled
the law.                                             • equipment rental;
                                                                                                   to payment. Examples of false claims for
                                                     • personal services and management
Penalty for Unlawful Conduct                                                                       services or supplies that were not provided
                                                  contracts;
   The penalty may include the imposition of         • sale of practice;                           specifically as presented include, but are not
a fine, imprisonment of up to 5 years, or            • referral services;                          limited to:
both.                                                • warranties;                                    • a claim for a service or supply that was
                                                     • discounts;                                  never provided.
Examples                                                                                              • a claim indicating the service was
                                                     • employment relationships;
  1. Dr. X knowingly and repeatedly submits          • waiver of Part A co-insurance and           provided for some diagnosis code other than
electronic claims to the Medicare carrier for     deductible amounts;                              the true diagnosis code in order to obtain
office visits that he did not actually provide       • group purchasing organizations;             reimbursement for the service (which would
to Medicare beneficiaries with the intent to         • increased coverage or reduced cost          not be covered if the true diagnosis code
obtain payments from Medicare for services        sharing under a risk-basis or prepaid plan;      were submitted).
he never performed.                               and                                                 • a claim indicating a higher level of
  2. Dr. X, a neurologist, knowingly                 • charge reduction agreements with health     service than was actually provided.
submitted claims for tests that were not          plans.                                              • a claim for a service that the provider
reasonable and necessary and intentionally                                                         knows is not reasonable and necessary.
upcoded office visits and electromyograms to      Penalty for Unlawful Conduct
                                                                                                      • a claim for services provided by an
Medicare.                                            The penalty may include the imposition of     unlicensed individual.
VI. Criminal Penalties for Acts Involving         a fine of up to $25,000, imprisonment of up         Knowingly—To ‘‘knowingly’’ present a
Federal Health Care Programs (42 U.S.C.           to 5 years, or both. In addition, the provider   false or fraudulent claim means that the
1320a–7b)                                         can be excluded from participation in            provider: (1) Has actual knowledge that the
                                                  Federal health care programs. The                information on the claim is false; (2) acts in
Description of Unlawful Conduct                   regulations defining the aggravating and
                                                                                                   deliberate ignorance of the truth or falsity of
False Statement and Representations               mitigating circumstances that must be
                                                                                                   the information on the claim; or (3) acts in
                                                  reviewed by the OIG in making an exclusion
  It is a crime to knowingly and willfully:                                                        reckless disregard of the truth or falsity of the
                                                  determination are set forth in 42 CFR part
  (1) make, or cause to be made, false            1001.                                            information on the claim. It is important to
statements or representations in applying for                                                      note the provider does not have to
benefits or payments under all Federal health     Examples                                         deliberately intend to defraud the Federal
care programs;                                      1. Dr. X accepted payments to sign             Government in order to be found liable under
  (2) make, or cause to be made, any false        Certificates of Medical Necessity for durable    this Act. The provider need only
statement or representation for use in            medical equipment for patients she never         ‘‘knowingly’’ present a false or fraudulent
determining rights to such benefit or             examined.                                        claim in the manner described above.
payment;                                            2. Home Health Agency disguises referral          Deliberate Ignorance—To act in ‘‘deliberate
  (3) conceal any event affecting an              fees as salaries by paying referring physician   ignorance’’ means that the provider has
individual’s initial or continued right to        Dr. X for services Dr. X never rendered to the   deliberately chosen to ignore the truth or
receive a benefit or payment with the intent      Medicare beneficiaries or by paying Dr. X a      falsity of the information on a claim
to fraudulently receive the benefit or            sum in excess of fair market value for the       submitted for payment, even though the
payment either in an amount or quantity           services he rendered to the Medicare             provider knows, or has notice, that
greater than that which is due or authorized;     beneficiaries.                                   information may be false. An example of a
  (4) convert a benefit or payment to a use                                                        provider who submits a false claim with
other than for the use and benefit of the         Appendix C: Civil and Administrative
                                                                                                   deliberate ignorance would be a physician
person for whom it was intended;                  Statutes                                         who ignores provider update bulletins and
  (5) present, or cause to be presented, a           This Appendix contains a description of       thus does not inform his/her staff of changes
claim for a physician’s service when the          civil and administrative statutes related to     in the Medicare billing guidelines or update
service was not furnished by a licensed           fraud and abuse in the context of health care.   his/her billing system in accordance with
physician;                                        The Appendix is not intended to be a             changes to the Medicare billing practices.
  (6) for a fee, counsel an individual to         compilation of all federal statutes related to   When claims for non-reimbursable services
dispose of assets in order to become eligible     health care fraud and abuse. It is merely a      are submitted as a result, the False Claims
for medical assistance under a State health       summary of some of the more frequently           Act has been violated.
program, if disposing of the assets results in    cited Federal statutes.                             Reckless Disregard—To act in ‘‘reckless
the imposition of an ineligibility period for
                                                  I. The False Claims Act (31 U.S.C. 3729–         disregard’’ means that the provider pays no
the individual.
                                                  3733)                                            regard to whether the information on a claim
Anti-Kickback Statute                                                                              submitted for payment is true or false. An
  It is a crime to knowingly and willfully        Description of Unlawful Conduct                  example of a provider who submits a false
solicit, receive, offer, or pay remuneration of     This is the law most often used to bring a     claim with reckless disregard would be a
any kind (e.g., money, goods, services):          case against a health care provider for the      physician who assigns the billing function to
  • for the referral of an individual to          submission of false claims to a Federal health   an untrained office person without inquiring
another for the purpose of supplying items or     care program. The False Claims Act prohibits     whether the employee has the requisite
services that are covered by a Federal health     knowingly presenting (or causing to be           knowledge and training to accurately file
care program; or                                  presented) to the Federal Government a false     such claims.
59450                     Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

Penalty for Unlawful Conduct                      Federal health care program in order to prove       • prepaid plans.
  The penalty for violating the False Claims      a provider violated the statute.
                                                                                                    Exceptions for Ownership or Investment in
Act is a minimum of $5,500 up to a                Penalty for Unlawful Conduct                      Publicly Traded Securities and Mutual Funds
maximum of $11,000 for each false claim
                                                    Violation of the CMPL may result in a             • ownership of investment securities
submitted. In addition to the penalty, a
                                                  penalty of up to $10,000 per item or service      which may be purchased on terms generally
provider could be found liable for damages        and up to three times the amount unlawfully       available to the public;
of up to three times the amount unlawfully        claimed. In addition, the provider may be           • ownership of shares in a regulated
claimed.                                          excluded from participation in Federal health     investment company as defined by Federal
Examples                                          care programs. The regulations defining the       law, if such company had, at the end of the
                                                  aggravating and mitigating circumstances          company’s most recent fiscal year, or on
   • A physician submitted claims to
                                                  that must be reviewed by the OIG in making        average, during the previous 3 fiscal years,
Medicare and Medicaid representing that he        an exclusion determination are set forth in 42    total assets exceeding $75,000,000;
had personally performed certain services         CFR part 1001.                                      • hospital in Puerto Rico;
when, in reality, the services were performed                                                         • rural provider; and
by a nonphysician and they were not               Examples
                                                                                                      • hospital ownership (whole hospital
reimbursable under the Federal health care          1. Dr. X paid Medicare and Medicaid             exception).
programs.                                         beneficiaries $20 each time they visited him
   • Dr. X intentionally upcoded office visits    to receive services and have tests performed      Exceptions Relating to Other Compensation
and angioplasty consultations that were           that were not preventive care services and        Arrangements
submitted for payment to Medicare.                tests.                                              • rental of office space and rental of
   • Dr. X, a podiatrist, knowingly submitted       2. Dr. X hired Physician Assistant P to         equipment;
claims to the Medicare and Medicaid               provide services to Medicare and Medicaid           • bona fide employment relationship;
programs for non-routine surgical procedures      beneficiaries without conducting a                  • personal service arrangement;
when he actually performed routine, non-          background check on P. Had Dr. X performed          • remuneration unrelated to the provision
covered services such as the cutting and          a background check by reviewing the HHS–          of designated health services;
trimming of toenails and the removal of corns     OIG List of Excluded Individuals/Entities, Dr.      • physician recruitment;
and calluses.                                     X would have discovered that he should not          • isolated transactions;
II. Civil Monetary Penalties Law (42 U.S.C.       hire P because P is excluded from                   • certain group practice arrangements with
1320a–7a)                                         participation in Federal health care programs     a hospital (pre-1989); and
                                                  for a period of 5 years.                            • payments by a physician for items and
Description of Unlawful Conduct                     3. Dr. X and his oximetry company billed        services.
   The Civil Monetary Penalties Law (CMPL)        Medicare for pulse oximetry that they knew
                                                  they did not perform and services that had        Penalty for Unlawful Conduct
is a comprehensive statute that covers an
array of fraudulent and abusive activities and    been intentionally upcoded.                          Violations of the statute subject the billing
is very similar to the False Claims Act. For                                                        entity to denial of payment for the designated
                                                  III. Limitations on Certain Physician
instance, the CMPL prohibits a health care                                                          health services, refund of amounts collected
                                                  Referrals (‘‘Stark Laws’’) (42 U.S.C. 1395nn)
provider from presenting, or causing to be                                                          from improperly submitted claims, and a
presented, claims for services that the           Description of Unlawful Conduct                   civil monetary penalty of up to $15,000 for
provider ‘‘knows or should know’’ were:             Physicians (and immediate family                each improper claim submitted. Physicians
   • not provided as indicated by the coding      members) who have an ownership,                   who violate the statute may also be subject
on the claim;                                     investment or compensation relationship           to additional fines per prohibited referral. In
   • not medically necessary;                     with an entity providing ‘‘designated health      addition, providers that enter into an
   • furnished by a person who is not             services’’ are prohibited from referring          arrangement that they know or should know
licensed as a physician (or who was not           patients for these services where payment         circumvents the referral restriction law may
properly supervised by a licensed physician);     may be made by a Federal health care              be subject to a civil monetary penalty of up
   • furnished by a licensed physician who        program unless a statutory or regulatory          to $100,000 per arrangement.
obtained his or her license through               exception applies. An entity providing a          Examples
misrepresentation of a material fact (such as     designated health service is prohibited from
cheating on a licensing exam);                                                                         1. Dr. A worked in a medical clinic located
                                                  billing for the provision of a service that was
   • furnished by a physician who was not                                                           in a major city. She also owned a free
                                                  provided based on a prohibited referral.
certified in the medical specialty that he or                                                       standing laboratory located in a major city.
                                                  Designated health services include: clinical
she claimed to be certified in; or                                                                  Dr. A referred all orders for laboratory tests
                                                  laboratory services; physical therapy
   • furnished by a physician who was                                                               on her patients to the laboratory she owned.
                                                  services; occupational therapy services;
excluded from participation in the Federal                                                             2. Dr. X agreed to serve as the Medical
                                                  radiology services, including magnetic
health care program to which the claim was                                                          Director of Home Health Agency, HHA, for
                                                  resonance imaging, axial tomography scans,
submitted.                                                                                          which he was paid a sum substantially above
                                                  and ultrasound services; radiation therapy
   Additionally, the CMPL contains various                                                          the fair market value for his services. In
                                                  services and supplies; durable medical
other prohibitions, including:                                                                      return, Dr. X routinely referred his Medicare
                                                  equipment and supplies; parenteral and
   • offering remuneration to a Medicare or                                                         and Medicaid patients to HHA for home
                                                  enteral nutrients, equipment and supplies;
Medicaid beneficiary that the person knows                                                          health services.
                                                  prosthetics, orthotics, prosthetic devices and
or should know is likely to influence the                                                              3. Dr. Y received a monthly stipend of $500
                                                  supplies; home health services; outpatient
beneficiary to obtain items or services billed                                                      from a local hospital to assist him in meeting
                                                  prescription drugs; and inpatient and
to Medicare or Medicaid from a particular                                                           practice expenses. Dr. Y performed no
                                                  outpatient hospital services.
provider;                                                                                           specific service for the stipend and had no
                                                    New regulations clarifying the exceptions
   • employing or contracting with an                                                               obligation to repay the hospital. Dr. Y
                                                  to the Stark Laws are expected to be issued
individual or entity that the person knows or                                                       referred patients to the hospital for in-patient
                                                  by HCFA shortly. Current exceptions
should know is excluded from participation                                                          surgery.
                                                  articulated within the Stark Laws include the
in a Federal health care program.                 following, provided all conditions of each        IV. Exclusion of Certain Individuals and
   The term ‘‘should know’’ means that a          exception as set forth in the statute and         Entities From Participation in Medicare and
provider: (1) Acted in deliberate ignorance of    regulations are satisfied.                        other Federal Health Care Programs (42
the truth or falsity of the information; or (2)                                                     U.S.C. 1320a–7)
acted in reckless disregard of the truth or       Exceptions for Ownership or Compensation
falsity of the information. The Federal           Arrangements                                      Mandatory Exclusion
Government does not have to show that a             • physician’s services;                           Individuals or entities convicted of the
provider specifically intended to defraud a         • in-office ancillary services; and             following conduct must be excluded from
                          Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices                                       59451

participation in Medicare and Medicaid for a          2. Practice T was excluded due to its          use of the Provider Self-Disclosure Protocol.
minimum of 5 years:                                affiliation with its excluded owner. The          This program encourages providers to
  (1) a criminal offense related to the            practice owner, excluded from participation       voluntarily disclose irregularities in their
delivery of an item or service under Medicare      in the Federal health care programs for           dealings with Federal health care programs.
or Medicaid;                                       soliciting and receiving illegal kickbacks, was   While voluntary disclosure under the
  (2) a conviction under Federal or State law      still participating in the day-to-day             protocol does not guarantee a provider
of a criminal offense relating to the neglect      operations of the practice after his exclusion    protection from civil, criminal, or
or abuse of a patient;                             was effective.                                    administrative actions, the fact that a
  (3) a conviction under Federal or State law                                                        provider voluntarily disclosed possible
of a felony relating to fraud, theft,              Appendix D: OIG–HHS Contact Information           wrongdoing is a mitigating factor in OIG’s
embezzlement, breach of fiduciary                  I. OIG Hotline Number                             recommendations to prosecuting agencies.
responsibility or other financial misconduct                                                         Although other agencies may not have formal
against a health care program financed by             One method for providers to report
                                                                                                     policies offering immunity or mitigation for
any Federal, State, or local government            potential fraud, waste, and abuse problems is
                                                                                                     self-disclosure, they typically view self-
agency;                                            to contact the OIG Hotline number. All HHS
                                                                                                     disclosure favorably for the self-disclosing
  (4) a conviction under Federal or State law      and contractor employees have a
                                                                                                     entity. Self-reporting offers providers the
of a felony relating to the unlawful               responsibility to assist in combating fraud,
                                                                                                     opportunity to minimize the potential cost
manufacture, distribution, prescription, or        waste and abuse in all departmental
                                                                                                     and disruption of a full-scale audit and
dispensing of a controlled substance.              programs. As such, providers are encouraged
                                                                                                     investigation, to negotiate a fair monetary
  If there is one prior conviction, the            to report matters involving fraud, waste and
                                                                                                     settlement, and to avoid an OIG permissive
exclusion will be for 10 years. If there are two   mismanagement in any departmental
                                                                                                     exclusion preventing the provider from doing
prior convictions, the exclusion will be           program to the OIG. The OIG maintains a
                                                   hotline that offers a confidential means for      business with Federal health care programs.
permanent.                                                                                           In addition, if the provider is obligated to
                                                   reporting these matters.
Permissive Exclusion                                                                                 enter into an Integrity Agreement (IA) as part
                                                   Contacting the OIG Hotline                        of the resolution of a voluntary disclosure,
  Individuals or entities convicted of the                                                           there are three benefits the provider might
                                                   By Phone: 1–800–HHS–TIPS (1–800–447–
following offenses, may be excluded from                                                             receive as a result of self-reporting:
                                                      8477)
participation in Federal health care programs                                                           • If the provider has an effective
                                                   By E-Mail: HTips@os.dhhs.gov
for a minimum of 3 years:                                                                            compliance program and agrees to maintain
                                                   By Mail: Office of Inspector General,
  (1) a criminal offense related to the                                                              its compliance program as part of the False
                                                      Department of Health and Human Services,
delivery of an item or service under Medicare                                                        Claims Act settlement, the OIG may not even
                                                      Attn: HOTLINE, 330 Independence Ave.,
or Medicaid;                                                                                         require an IA;
                                                      SW., Washington, DC 20201
  (2) a misdemeanor related to fraud, theft,                                                            • In cases where the provider’s own audits
embezzlement, breach of fiduciary                     When contacting the Hotline, please
                                                   provide the following information to the best     detected the disclosed problem, the OIG may
responsibility or other financial misconduct                                                         consider alternatives to the IA’s auditing
against a health care program financed by          of your ability:
                                                      • Type of Complaint:                           provisions. The provider may be able to
any Federal, State, or local government
                                                                                                     perform some or all of its billing audits
agency;                                            Medicare Part A

                                                                                                     through internal auditing methods rather
  (3) interference with, or obstruction of, any    Medicare Part B

                                                                                                     than be required to retain an independent
investigation into certain criminal offenses;      Indian Health Service

                                                                                                     review organization to perform the billing
  (4) a misdemeanor related to the unlawful        TRICARE

                                                                                                     review; and
manufacture, distribution, prescription or         Other (please specify)

                                                                                                        • Self-disclosing can help to demonstrate a
dispensing of a controlled substance;                 • HHS Department or program being              provider’s trustworthiness to the OIG and
  (5) exclusion or suspension under a              affected by your allegation of fraud, waste,      may result in the OIG determining that it can
Federal or State health care program;              abuse/mismanagement:
  (6) submission of claims for excessive                                                             sufficiently safeguard the Federal health care
charges, unnecessary services or services that     Health Care Financing Administration              programs through an IA without the
were of a quality that fails to meet                  (HCFA)                                         exclusion remedy for a material breach,
professionally recognized standards of health      Indian Health Service                             which is typically included in an IA.
care;                                              Other (please specify)                               Specific instructions on how a physician
  (7) violating the Civil Monetary Penalties          Please provide the following information.      practice can submit a voluntary disclosure
Law or the statute entitled ‘‘Criminal             (However, if you would like your referral to      under the Provider Self-Disclosure Protocol
Penalties for Acts Involving Federal Health        be submitted anonymously, please indicate         can be found on the OIG’s internet site at
Care Programs;’’                                   such in your correspondence or phone call.)       www.hhs.gov/oig or in the Federal Register
  (8) ownership or control of an entity by a       Your Name
                                        at 63 FR 58399 (1998). A physician practice
sanctioned individual or immediate family          Your Street Address
                              may, however, wish to consult with an
member (spouse, natural or adoptive parent,        Your City/County
                                 attorney prior to submitting a disclosure to
child, sibling, stepparent, stepchild,             Your State
                                       the OIG.
stepbrother or stepsister, in-laws,                Your Zip Code
                                       The Provider Self-Disclosure Protocol can
grandparent and grandchild);                       Your email Address
                               also be a useful tool for baseline audits. The
  (9) failure to disclose information required                                                       protocol details the OIG’s views on the
                                                      • Subject/Person/Business/Department           appropriate elements of an effective
by law;                                            that allegation is against.
  (10) failure to supply claims payment                                                              investigative and audit plan for providers.
information; and                                   Name of Subject
                                  Physician practices can use the self-
  (11) defaulting on health education loan or      Title of Subject
                                 disclosure protocol as a model for conducting
scholarship obligations.                           Subject’s Street Address
                         audits and self-assessments.
  The above list of offenses is not all            Subject’s City/County
                               In relying on the protocol for audit design
inclusive. Additional grounds for permissive       Subject’s State
                                  and sample selection, a physician practice
exclusion are detailed in the statute.             Subject’s Zip Code
                               should pay close attention to the sections on
                                                      Please provide a brief summary of your         self-assessment and sample selection. These
Examples                                           allegation and the relevant facts.                two sections provide valuable guidance
  1. Nurse R was excluded based on a                                                                 regarding how these two functions should be
conviction involving obtaining dangerous           II. Provider Self-Disclosure Protocol             performed.
drugs by forgery. She also altered                    The recommended method for a provider             The self-assessment section of the protocol
prescriptions that were given for her own          to contact the OIG regarding potential fraud      contains information that can be applied to
health problems before she presented them to       or abuse issues that may exist in the             audit design. Self-assessment is an internal
the pharmacist to be filled.                       provider’s own organization is through the        financial assessment to determine the
59452                       Federal Register / Vol. 65, No. 194 / Thursday, October 5, 2000 / Notices

monetary impact of the matter. The approach          This web site includes information on a          Name of Committee: President’s Cancer
of a review can include reviewing either all       wide array of topics, including the following:   Panel.
claims affected or a statistically valid sample                                                       Date: October 12–13, 2000.
of the claims.                                     Medicare                                           Time: 9:00 AM to 4:00 PM.
  Sample selection must include several            National Correct Coding Initiative
                Agenda: Town Hall Meeting. Topic will be
elements. These elements are drawn from the        Intermediary-Carrier Directory
                  Improving Cancer Care for All: Real People—
Government sampling program known as               Payment
                                         Real Problems.
RAT–STATS.1 All of these elements are set          Program Manuals
                                   Place: Radisson Northern Hotel, 19 North
forth in more detail in the Provider Self-         Program Transmittals & Memorandum
               28th Street, Billings, MT 59101.
Disclosure Protocol, but the elements are (1)      Provider Billing/HCFA Forms
                       Contact Person: Maureen O. Wilson,
Sampling unit, (2) sampling frame, (3) probe,      Statistics and Data
                             Executive Secretary, National Cancer
(4) sample size, (5) random numbers, (6)                                                            Institute, National Institutes of Health, 31
sample design and (7) missing sample items.        Medicaid
                                                                                                    Center Drive, Building 31, Room 4A48,
All of these sampling items should be clearly      HCFA Regional Offices
                           Bethesda, MD 20892, 301/496–1148.
documented by the physician practice and           Letters to State Medicaid Directors
               This notice is being published less than 15
compiled in the format set forth in the            Medicaid Hotline Numbers
                        days prior to the meeting due to scheduling
Provider Self-Disclosure Protocol. Use of the      Policy & Program Information
                    conflicts.
format set forth in the Provider Self-             State Medicaid Contacts
                         (Catalogue of Federal Domestic Assistance
Disclosure Protocol will help physician            State Medicaid Manual

practices to ensure that the elements of their                                                      Program Nos. 93.392, Cancer Construction;
                                                   State Survey Agencies
                           93.393, Cancer Cause and Prevention
internal audits are in conformance with OIG        Statistics and Data

standards.                                                                                          Research; 93.394, Cancer Detection and
                                                   HCFA Medicare Training                           Diagnosis Research; 93.395, Cancer
Appendix E: Carrier Contact                        www.hcfa.gov/medlearn
                                                                                                    Treatment Research; 93.396, Cancer Biology
Information                                                                                         Research; 93.397, Cancer Centers Support;
                                                     This site provides computer-based training
                                                                                                    93.398, Cancer Research Manpower; 93.399,
Medicare                                           on the following topics:
                                                                                                    Cancer Control, National Institutes of Health,
                                                   HCFA 1500 Form
  A complete list of contact information                                                            HHS)
(address, phone number, email address) for         Fraud & Abuse
Medicare Part A Fiscal Intermediaries,             ICD–9–CM Diagnosis Coding                          Dated: September 26, 2000.
Medicare Part B Carriers, Regional Home            Adult Immunization
                                                   Medicare Secondary Payer (MSP)                   LaVerne Y. Stringfield,
Health Intermediaries, and Durable Medical                                                          Director, Office of Federal Advisory
Equipment Regional Carriers can be found on        Women’s Health
                                                   Front Office Management                          Committee Policy.
the HCFA web site at www.hcfa.gov/
medicare/incardir.htm.                             Introduction to the World of Medicare            [FR Doc. 00–25538 Filed 10–4–00; 8:45 am]
                                                   Home Health Agency                               BILLING CODE 4140–01–M
Medicaid                                           HCFA 1450 (UB92)
  Contact information (address, phone              Government Printing Office
number, email address) for each State                                                               DEPARTMENT OF HEALTH AND
Medicaid carrier can be found on the HCFA          www.access.gpo.gov
                                                     This site provides access to Federal           HUMAN SERVICES
web site at www.hcfa.gov/medicaid/
mcontact.htm. In addition to a list of             statutes and regulations pertaining to Federal
                                                   health care programs.                            National Institutes of Health
Medicaid carriers, the web site includes
contact information for each State survey          The U.S. House of Representatives Internet       National Cancer Institute; Notice of
agency and the HCFA Regional Offices.              Library
  Contact information for each State                                                                Meeting
Medicaid Fraud Control Unit can be found           uscode.house.gov/usc.htm
                                                     This site provides access to the United
                                                                                                       Pursuant to section 10(a) of the
on the OIG web site at www.hhs.gov/oig/oi/                                                          Federal Advisory Committee Act, as
mfcu/index.htm.                                    States Code, which contains laws pertaining
                                                   to Federal health care programs.                 amended (5 U.S.C. Appendix 2), notice
Appendix F: Internet Resources                                                                      is hereby given of a meeting of the
                                                   [FR Doc. 00–25500 Filed 10–4–00; 8:45 am]
Office of Inspector General—U.S.                   BILLING CODE 4152–01–P
                                                                                                    National Cancer Institute Director’s
Department of Health and Human Services                                                             Consumer Liaison Group.
www.hhs.gov/oig
                                                                                                       The meeting will be open to the
  This web site includes a variety of              DEPARTMENT OF HEALTH AND                         public, with attendance limited to space
information relating to Federal health care        HUMAN SERVICES                                   available. Individuals who plan to
programs, including the following:                                                                  attend and need special assistance, such
Advisory Opinions                                  National Institutes of Health                    as sign language interpretation or other
Anti-kickback Information                                                                           reasonable accommodations, should
Compliance Program Guidance                        National Cancer Institute; Notice of             notify the Contact Person listed below
Corporate Integrity Agreements                     Meeting                                          in advance of the meeting.
Fraud Alerts
  Links to web pages for the:                                                                         Name of Committee: National Cancer
                                                      Pursuant to section 10(a) of the
Office of Audit Services (OAS)                                                                      Institute Director’s Consumer Liaison Group.
                                                   Federal Advisory Committee Act, as                 Date: October 17–18, 2000.
Office of Evaluation and Inspections (OEI)
Office of Investigations (OI)
                                                   amended (5 U.S.C. Appendix 2), notice              Time: 8 AM to 12:30 PM.
OIG List of Excluded Individuals/Entities          is hereby given of a meeting of the                Agenda: To discuss NCI’s activities related
OIG News                                           President’s Cancer Panel.                        to Health Disparities and Quality of Care, and
OIG Regulations                                       The meeting will be open to the               Update on the Office of Communications
OIG Semi-Annual Report                             public, with attendance limited to space         reorganization regarding DCLG activities,
OIG Workplan                                       available. Individuals who plan to               including reports from the working groups.
                                                                                                      Place: National Cancer Institute, 6116
Health Care Financing Administration               attend and need special assistance, such         Executive Boulevard, Suite 300C, Rockville,
www.hcfa.gov                                       as sign language interpretation or other         MD 20852.
                                                   reasonable accommodations, should                  Contact Person: Elaine Lee, Acting
 1 Available through the OIG web site at http://   notify the Contact Person listed below           Executive Secretary, Office of Liaison
www.hhs.gov/oas/ratstat.html.                      in advance of the meeting.                       Activities, National Institutes of Health,
